<html>
<title> - A COMPREHENSIVE ASSESSMENT OF U.S. POLICY TOWARD SUDAN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



         A COMPREHENSIVE ASSESSMENT OF U.S. POLICY TOWARD SUDAN

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 4, 2011

                               __________

                           Serial No. 112-110

                               __________

        Printed for the use of the Committee on Foreign Affairs






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
70-583PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York


























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Princeton Lyman, Special Envoy for Sudan, U.S. 
  Department of State............................................     6
Mr. Ker Aleu Deng, emancipated slave from the Republic of South 
  Sudan..........................................................    26
Gerard Prunier, Ph.D., nonresident senior fellow, Michael S. 
  Ansari Africa Center, Atlantic Council.........................    30
Mr. John Prendergast, co-founder, The Enough Project.............    38
Ms. Ellen Ratner, journalist.....................................    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Princeton Lyman: Prepared statement................    10
Mr. Ker Aleu Deng: Prepared statement............................    28
Gerard Prunier, Ph.D.: Prepared statement........................    33
Mr. John Prendergast: Prepared statement.........................    42
Ms. Ellen Ratner: Prepared statement.............................    51

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri:
  Prepared statement.............................................    70
  Questions submitted for the record.............................    71

 
         A COMPREHENSIVE ASSESSMENT OF U.S. POLICY TOWARD SUDAN

                              ----------                              


                        TUESDAY, OCTOBER 4, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:22 p.m., in 
room 2200, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And I want 
to thank everyone for being here and especially for your 
patience. We did have a series of votes on the House floor.
    So, Mr. Ambassador, and to all of our distinguished guests 
and friends, I apologize for the lateness. We are holding 
today's hearing for the purpose of examining a wide range of 
issues involving U.S. policy toward Sudan, including the 
ongoing attacks on Southern Kordofan and Blue Nile States; the 
continuing negotiations with the Republic of South Sudan, on 
challenges, such as the demarcation of the border, the fate of 
the Abyei region, citizenship in both countries, and oil 
revenue sharing. Additionally, this hearing provides 
opportunities to receive an update on the U.S. response to the 
enduring stalemate on Darfur and to examine U.S. policy on the 
release of Sudanese still held in bondage throughout Sudan.
    Ambassador, thank you again for being here and for your 
work on behalf of peace and justice in Sudan.
    Two months ago, this subcommittee held an emergency hearing 
on the attacks by the Republic of Sudan on its own Southern 
Kordofan State. The crisis first arose in June, shortly after 
the military forces of the Khartoum government attacked the 
disputed Abyei area. This was apparently a provocation to the 
Sudanese People's Liberation Movement, or SPLM, government in 
what is now South Sudan just before the country's new 
independence. This vicious attack didn't provoke the SPLM into 
retaliation, which would have or could have derailed its 
independence. Nevertheless, dozens of people were killed and 
more than 200,000 were displaced in the immediate aftermath of 
the Northern attack on its own territory.
    This violence was a tragic resumption of a prior war by the 
Khartoum government on the Nuba of Southern Kordofan. Beginning 
in the 1980s, Islamic elements in the North began an 
eradication campaign against the Nuba, pitting Northern Arabs 
against Africans to the South. Earlier this month, the Sudanese 
military bombed its own Blue Nile State, including attacks on 
the Governor's residence. Nearly half a million people were 
affected by the air and ground assault on Blue Nile. It seems 
the so-called cease-fire in Southern Kordofan was only a 
pretext to facilitate preparations for the assault on Blue 
Nile.
    The Comprehensive Peace Agreement that ended the North-
South civil war was supposed to provide for consultations for 
both states, so residents could determine their political 
future. However, Khartoum didn't want to risk their breakaway 
and lose them, as it had South Sudan. The promised 
consultations were held in Blue Nile but postponed in Southern 
Kordofan.
    When the SPLM-North members of Southern Kordofan and Blue 
Nile didn't lay down their arms in advance of South Sudan's 
independence, Khartoum used that as an excuse to eliminate 
those who had supported the South in the long civil war. A 
preemptive strike in Southern Kordofan evidently was meant to 
chase out those who had opposed Khartoum. The members of the 
SPLM-North were stalked by the Sudanese military who went door 
to door to eliminate them.
    The similar attack in Blue Nile was intended to purge that 
state of the supposed opponents of the Khartoum government 
living there as well. In fact, the Southern Sudanese People's 
Liberation Army-North Governor of Blue Nile, has been chased 
out of the capitol by Northern military forces.
    As the world was focused on the January referendum, in 
which Southerners voted for an independent South Sudan, human 
rights organizations reported rising violence in Darfur. There 
was a resumption of conflict in several locations in North and 
South Darfur between Sudanese Government military forces and 
Sudanese Liberation Army rebels loyal to Minni Minawi, a 
signatory to the now-defunct 2006 Darfur Peace Agreement.
    Recently, the Sudanese Army clashed with the rebel Justice 
and Equality Movement, or JEM, in the remote area of North 
Darfur, near Sudan's triangle border with Chad and Libya. 
Darfur rebels have attacked Omdurman and Khartoum in Northern 
Sudan in 2008, which resulted in a massive crackdown on 
dissidents.
    The brutality by the Sudanese military will not crush the 
desire for freedom in Abyei, Southern Kordofan, Blue Nile, or 
Darfur. In seeking to prevent the secession of these states and 
the special administrative area of Abyei, Bashir's government 
may be sowing seeds for Sudan's eventual dissolution. Until 
that time however, the international community must continue to 
press for an end to the attacks on Sudanese, using all of our 
available diplomatic and economic resources. The human rights 
of the people in the North must be every bit as important to us 
as the rights of those in the South have been.
    Meanwhile, we have known that raiders from the North were 
killing Southern men and taking women and children for slavery 
for decades. Reports from human rights groups in the U.S. 
Department of State on Sudanese slavery gained the attention of 
Members of Congress, such as myself, as early as the 1980s 
because of the serious human rights implications of modern-day 
slavery.
    I would note parenthetically that I chaired the first 
congressional hearing ever held on slavery in Sudan on March 
13, 1996. Our witnesses included then-Deputy Assistant 
Secretary for African Affairs William Twaddell; Samuel Cotton 
of the Coalition Against Slavery in Mauritania and Sudan; Dr. 
Charles Jacobs of the American Anti-Slavery Group; Baroness 
Caroline Cox, Deputy Speaker of the British House of Lords, who 
testified on behalf of Christian Solidarity International; and 
Dr. Gaspar Biro, Human Rights Rapporteur of the United Nations. 
Fifteen years ago, these witnesses cited the gross human rights 
violations committed by the Government of Sudan and their 
failure to cooperate in addressing slavery. Special Rapporteur 
Biro referred to it as<greek-l>, quote, deg. ``manifest 
passivity of the Government of Sudan.'' And of course, others 
thought it even worse, complete and total complicity. Deputy 
Assistant Secretary Twaddell said the Clinton administration 
acknowledged then that slavery was an ugly reality in Sudan.
    Following a visit to the Sudan People's Liberation Army-
held portion of Sudan in November 2000, then-Assistant 
Secretary of State for African Affairs Susan Rice said that 
neither the Clinton administration nor its successor would 
cease working to end slavery in Sudan.
    Why has that promise simply not been kept? When former 
Assistant Secretary Rice made that pledge, the U.N. estimated 
that there were as many as 15,000 Southern Sudanese held in 
bondage after being abducted in raids by Arab militiamen on 
Southern villages. While the current exact number of Sudanese 
slaves is unknown, too many people remain in slavery in Sudan 
and more continue to join them each day.
    The State Department's 2011 Trafficking in Persons Report 
lists Sudan as a Tier III country that is a continuing source, 
transit, and destination country for men, women, and children 
subjected to forced labor and sex trafficking. Slavery remains 
a pervasive and deeply disturbing reality in Sudan, and we 
cannot in good conscience allow this to continue.
    We have had active campaigns to end Sudanese slavery, 
especially those initiated by Christian Solidarity 
International, to end genocide in Darfur, to end the North-
South civil war, and now to end the attacks in Abyei, South 
Kordofan and Blue Nile. Unfortunately, these campaigns have 
been conducted in isolation from one another.
    If we are to have a successful policy to stop the suffering 
of Sudan's people, our Government must devise a comprehensive 
policy for addressing all of Sudan's challenges. To facilitate 
such a policy consolidation, civil society also must support a 
coordinated policy in a matter of their particular area of 
concern. Therefore, I would call on all civil society 
organizations concerned about the people of Sudan--and you 
certainly have done tremendous work over the years--to work 
together and demonstrate to our Government the wisdom and the 
effectiveness of a coordinated American policy on Sudan.
    I would like to now yield to my friend and colleague, Mr. 
Payne, for any opening comments he might have.
    Mr. Payne. Thank you very much.
    And let me begin by thanking Chairman Smith for his 
attention in the continuing crisis in Sudan. As indicated, we 
have had numerous hearings throughout the years when he was 
chair and then I was chair, and now that he is chair and we 
continue to focus on this very important part of the world, 
very troubled part.
    So I applaud him for continuing to have attention paid to 
this area.
    I also would want to thank our witnesses, that we 
appreciate their years and years of following this very 
important issue. Of course, Ambassador Lyman, who has a career 
in the State Department in troubled places, whether it is Haiti 
or South Sudan, and we are very pleased that you are our 
special envoy to the country.
    We are looking forward to the testimony today about the 
overall policy toward the Republic of Sudan in the aftermath of 
the independence of South Sudan and the attacks on Southern 
Kordofan and Blue Nile State. As we are all aware, on July 9th, 
the people of Southern Sudan officially seceded and formed the 
world's newest nation, South Sudan. I was among the delegation 
with Ambassador Lyman and General Colin Powell and many others 
present, Dr. Susan Rice, at the ceremony. And I witnessed the 
joy of the people of South Sudan and how jubilant they felt 
that day after many, many years of--22 years of civil war and 5 
years of interim government, that the day finally came that 
they received their independence.
    Prior to secession, Sudan weathered decades of devastating 
civil war. In 2005, with the help of the United States and 
other nations, Khartoum's National Congress Party and South 
Sudan's People's Liberation Movement, SPLM, signed a 
Comprehensive Peace Agreement, and I had the opportunity to be 
present at that signing. The CPA aimed to accomplish three 
things: One, redistribute both power and wealth in a less 
centralized structure; secondly, to transform the democratic 
process in Sudan; and three, to allow the people of Southern 
Sudan to decide on unity or separation.
    While we celebrate the triumph of democracy for South 
Sudan, many key provisions of the CPA remain unimplemented and 
conflict in the North rages on. There has not been democratic 
transformation in the North, and the popular consultations with 
Southern Kordofan and Blue Nile have been stymied. As time 
passes, the situation on the ground gets progressively worse.
    For nearly 9 years now, conflict has raged in Darfur and 
western Sudan. An estimated 450,000 people have been killed, 
over 1.9 million internally displaced, and 240,000 forced to 
flee neighboring Chad. Congress and the Bush administration 
recognized that what was going on was genocide and labeled it 
as such.
    Since then, multiple peace agreement attempts have failed. 
And to this day, violence continues. In late May, at the order 
of Omar al-Bashir, Sudanese armed forces invaded Abyei, killing 
over 100 and displacing an estimated 100,000. Bashir's forces 
then set their sights on the Southern Kordofan State. There 
were reports of mass graves and the targeted killing of the 
Nuba people.
    In early September, fighting also erupted between the SAF 
and SPLM in the Northern border state of Blue Nile. Together, 
both conflicts have displaced as many as 200,000 people, and 
Bashir's regime has severely restricted access to the region 
for the U.N. and other humanitarian organizations.
    On September 23rd, the Satellite Sentinel Project showed 
evidence that armed forces from Khartoum were mobilizing a 
massive formation of troops, artillery and military aircraft to 
the region, raising concerns about an escalation possibly of 
the hostilities. These recent events prove that Government of 
Sudan is continuing to use the same deadly method that it has 
employed for years against its own people.
    Yet the people of Sudan continue to push for democracy and 
inclusive government. They took to the streets earlier this 
year in demonstrations inspired by the Arab Spring activities 
in neighboring countries. Bashir's regime responded with 
extreme violence.
    There has also been increased cooperation between the 
various rebel groups dispersed throughout the country. Those 
groups are united under the mission to forcibly remove Bashir 
from power. The situation on the ground is fast approaching a 
tipping point that will likely result in civil war.
    It is against this backdrop that we take the opportunity 
today to reevaluate U.S. policy toward the Republic of Sudan. 
Two years ago, the Obama administration announced the policy, a 
Sudan policy that focused on three priorities: One, Darfur; the 
implementation of the CPA; and counterterrorism. Last year, a 
new policy was announced focusing on diplomatic engagement and 
the relaxation of sanctions and restrictions. The 
administration announced the plan to normalize relations; 
provide assistance and debt relief; seek congressional support 
for the removal of Sudan from the State Sponsor of Terrorism 
designation; support access to multilateral and bilateral 
assistance; remove executive branch sanctions; and seek 
congressional support to remove legislative sanctions.
    All this was conditioned upon full implementation of the 
CPA, progress in Darfur, and a commitment that Khartoum would 
not support terrorism. Not only have these contingencies not 
been met, but the situation is much worse. The U.S. and 
international community should develop a comprehensive and 
unified plan to reverse the pattern of grave crimes, human 
rights abuses and humanitarian crisis in Sudan and to support 
the democratic aspirations of the people of Sudan.
    I am interested in hearing from our witnesses about these 
issues. I am also interested in addressing the potential impact 
of the proposed cuts to the United States international affairs 
budget, including contributions to the United Nations, on our 
ability to provide humanitarian relief and bring stability to 
the region.
    Thank you, again, Mr. Chairman, for bringing this hearing 
today.
    And I look forward to hearing the testimony of the 
witnesses.
    Thank you.
    Mr. Smith. Thank you very much, Ranking Member Payne.
    Ms. Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman.
    Thank you very much for holding this very important 
meeting.
    And thank you to our witnesses here today.
    Many unresolved issues and disputes remain in the wake of 
the South Sudanese independence. Those issues exist because the 
new Comprehensive Peace Agreement has not been fully honored, 
nor has its goal been realized for the people of South Sudan, 
for those in Abyei, for those in Southern Kordofan and the Blue 
Nile.
    I believe that most of us in this room want the new 
Republic of South Sudan to flourish. We would also like to see 
stability, security, and freedom for the people of not only 
South Sudan but also North Sudan.
    As we discuss the situation in Sudan and South Sudan, we 
must not lose sight of the fact that failure to come to 
enforceable agreements over oil rights and border lines 
ultimately translates into more violence and greater loss of 
life.
    Again, thank you to our witnesses. I look forward to 
hearing your testimony.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you very much, Ms. Buerkle.
    And I would like to now welcome Ambassador Lyman, who was 
appointed U.S. Special Envoy for Sudan on March 31st. 
Immediately preceding his tenure as Special Envoy, he served as 
U.S. senior advisor of North-South negotiations, where he led 
the U.S. team focused on supporting ongoing negotiations 
between the parties to Sudan's 2005 Comprehensive Peace 
Agreement.
    Ambassador Lyman previously worked as an adjunct senior 
fellow for the Africa Policy Studies at the Council on Foreign 
Relations. He was also an adjunct professor at Georgetown 
University from 1999 to 2003. He was executive director of the 
Global Interdependence Initiative at the Aspen Institute.
    His previous career in government included assignments as 
Deputy Assistant Secretary of State for African Affairs from 
1981 to 1986; U.S. Ambassador to Nigeria, 1986 to 1989; 
Director of Refugee Programs from 1989 to 1992; U.S. Ambassador 
to South Africa from 1992 to 1995; and Assistant Secretary of 
State for International Organizations from 1996 to 1998. From 
2008 to 2010, he was a member of the African Advisory Committee 
to the United States Trade Representative. He began his 
government career with USAID and served as the director in 
Addis in Ethopia from 1976 to 1978.
    He has his Ph.D. in political science from Harvard, and has 
published extensively.
    And I now turn the floor to Ambassador Lyman.

 STATEMENT OF THE HONORABLE PRINCETON LYMAN, SPECIAL ENVOY FOR 
                SUDAN, U.S. DEPARTMENT OF STATE

    Ambassador Lyman. Mr. Chairman, thank you so very much for 
holding this hearing.
    Thank you, Ranking Member Donald Payne, and Congresswoman 
Buerkle.
    Thanks so much because we do need this attention on the 
issues in Sudan.
    There is much to discuss today, and I would ask if you 
could to allow my full statement to be made part of the record.
    Mr. Smith. Mr. Ambassador, without objection, so ordered.
    Ambassador Lyman. Some of those issues include, as many of 
you have indicated, the issues still unresolved under the 
Comprehensive Peace Agreement; the fighting in Southern 
Kordofan and Blue Nile; and the situation within each of these 
countries, Sudan and South Sudan.
    While we have witnessed the peaceful independence of South 
Sudan, tensions remain between the two countries. Three post-
CPA issues in particular remain to be resolved that could in 
themselves lead to confrontation or even conflict. These are 
the final status of Abyei; the financial arrangements in the 
oil sector; and disputed areas along the border.
    Negotiations on these issues are scheduled to resume this 
month in Addis Ababa under the auspices of the African Union 
High Level Implementation Panel, and we are urging the parties 
to come ready to address all three of these. In regard to 
Abyei, we are also particularly concerned that, despite 
agreement in June and reinforced in September on mutual 
withdrawal of all armed forces from that area, this has not 
taken place. And in particular, the Khartoum government has 
introduced conditions for its withdrawal when the agreement was 
very specifically that this would be an unconditional 
withdrawal once the Ethiopian peacekeepers were sufficiently in 
place, which they are. I and my staff will be present at these 
negotiations in Addis.
    But it is the fighting in the States of Southern Kordofan 
and Blue Nile that capture much of our attention at this time. 
Like the members of this subcommittee and many in the public 
that follow Sudan closely, we are angry and deeply upset at 
what has transpired there. The fighting has displaced hundreds 
of thousands of people, more have--tens of thousands have fled 
into Ethiopia and South Sudan. There are credible reports of 
serious human rights violations, including the bombing of 
civilian villages, kidnapping and murder of civilians taken 
from their home, and denial of desperately needed humanitarian 
assistance. We have denounced these acts and called for an 
independent investigation of these abuses.
    I regret that African members of the U.N. Security Council, 
along with China and Russia, have not supported that proposal. 
The U.N. Human Rights Council has agreed to renew the mandate 
of the Independent Expert on Human Rights for Sudan, but this 
is not sufficient.
    We have equally demanded that the Government of Sudan allow 
an international humanitarian organization to assess the needs 
of the people in these states and provide necessary assistance. 
We have pressed for this to take place regardless of whether a 
formal ceasefire or cessation of hostilities is in place, and 
we have reinforced that command most recently in our meeting 
with the Minister of Foreign Affairs in Washington last week.
    However, while we understand that the Government of South 
Sudan has historic ties with the SPLM in the North, the United 
States is deeply concerned that support to the SPLA fighters in 
Southern Kordofan and Blue Nile from the Government of South 
Sudan could further exacerbate the conflict in these two areas 
and run the risk of instigating direct military conflict with 
Sudan. The United States strongly urges the Government of South 
Sudan to use the influence it has to encourage both the SPLM-
North and the Government of Sudan to reopen direct lines of 
communication and work to find a negotiated political solution.
    We note that President Kiir will be going later this week 
to a meeting with President Bashir, and we are pleased with 
that, and we hope that this offers an opportunity for the two 
of them to discuss exactly this matter.
    What is deeply disappointing is that this fighting was not 
necessary and could have been avoided. Underlying the conflict 
are unresolved political issues which were to be addressed as 
part of the CPA. Just a few months ago, I attended negotiations 
on these issues under the auspices of the AU High Level Panel. 
And in June, the Government of Sudan and the SPLM-North signed 
a framework agreement to address both the political and 
security issues in these two states. Yet that agreement was 
later rejected by the Government of Sudan. I commend the 
efforts of President Thabo Mbeki and the AU panel which he 
directs, the Prime Minister of Ethiopia, and the Special Envoy 
of the U.N., with all of whom we worked very closely to 
reestablish these negotiations.
    I am ready to discuss further as we get into the Q&As of 
the situation in Darfur, which remains of major importance to 
us, but let me in these opening remarks make a particular point 
here that relates fundamentally to the outcome in Southern 
Kordofan, Blue Nile, and Darfur. Right now, Sudan is engaged in 
war in three parts of the country, the two areas of Southern 
Kordofan and Blue Nile, and in Darfur. This is happening at a 
time when Sudan faces particularly great economic challenges. 
While we often speak of the conflicts in these areas 
independently, at the root of all of them is the question of 
how Sudan will be governed in the future. This is a decision 
for the people of Sudan, not for outsiders. But for Sudan, the 
time is right for addressing this question.
    The government, in fact, recognizes that in the wake of the 
South's independence and the end of the government of national 
unity, a new constitution is needed. And it has promised a 
broadly participatory process in creating it. Therein lies the 
opportunity to address the fundamental issues that have driven 
conflict in Sudan for many years, issues of power and wealth 
sharing, of human rights and the role of democratic 
institutions, such as political parties and the judiciary. A 
broadbased national dialogue on these issues would offer the 
promise of a new day in Sudan, one in which all parts of the 
country and all of its people would benefit.
    There are some in the armed movements and others and 
elsewhere outside Sudan that have come to the conclusion that 
such a dialogue and process is impossible while the present 
government is in power in Khartoum. And they have committed 
themselves to seeking a military overthrow of the regime. But 
it is our belief that such a conclusion might well be a 
prescription for years, even decades, of renewed civil war in 
Sudan. Tens of thousands, maybe hundreds of thousands of 
Sudanese could die in such a war, and the outcome may not be 
what the protagonists had desired.
    Instead, we believe that there is real need for political 
dialogue on all of these issues and still opportunities thereby 
for peaceful collaborative change. In all our dealings with the 
armed movements, we have urged them to develop a political 
platform that would lay the foundation for their participation 
in such a process. And we continue to urge the Government of 
Sudan to cease hostilities, engage in dialogue, and put forward 
its plan for a new constitutional development.
    Finally, Mr. Chairman, let me turn to South Sudan. When 
President Obama met President Salva Kiir at the United Nations 
General Assembly last week, he emphasized that we are committed 
to assisting the South Sudanese as they face the responsibility 
and obligations of independence. U.S. assistance programs are 
already helping to support health care, education, 
infrastructure, good government, and economic diversification.
    The U.S. sanctions that apply to Sudan do not apply to 
South Sudan, and we urge American investors to take advantage 
of the opportunities there.
    However, critical to U.S. investment, is a commitment on 
the part of the Government of South Sudan to transparency, 
accountability, and inclusive governance. We welcome, 
therefore, President Kiir's commitments to his people and to 
the world to combat corruption and to hold those responsible 
for it accountable. The key will be an implementation of those 
promises with the full political backing of his government.
    The Government of South Sudan should also begin the first 
stage of the permanent constitutional development process and 
ensure that it is inclusive, participatory and transparent.
    Further, the basic rights of those currently residing in 
South Sudan must not be ignored. The United States is concerned 
about allegations of human rights abuse, perpetrated by the 
security services of South Sudan and particularly 
transgressions by the police.
    We are also gravely concerned about continuing reports of 
child soldiers in South Sudan. We have sent strong diplomatic 
messages to both the civilian government and the armed forces 
regarding this issue, and we are collaborating with the 
Government of South Sudan to address it. We will continue also 
to coordination with the United Nations' mission in South Sudan 
and the SPLA to prevent the recruitment of any child soldiers 
and to ensure that all child soldiers that are there are 
immediately demobilized.
    In conclusion, Mr. Chairman and members, the United States 
remains committed to seeing peace prevail in Sudan and an 
environment in which freedom and economic growth is there for 
all Sudanese. Right now, the situation is deeply worrisome. But 
we must persevere in bringing an end to the nightmare of war, 
depravation and suffering that has gone on for far too long in 
this part of Africa. Thank you.
    [The prepared statement of Ambassador Lyman follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so very much, Ambassador Lyman.
    Let me just begin the questioning. We have a second panel, 
as you know, and some of the statements are, while supportive 
in some ways, are very critical in others.
    Let me just focus on John Prendergast, who has been before 
this committee many times, both when Mr. Payne chaired the 
committee as well as when I have chaired the committee. And he 
makes a very important point, and I would just appreciate your 
response to it. He asked the question, how could U.S. policy 
toward South Sudan over the last decade been so successful and 
the policy toward Sudan to be such an abject failure? He says, 
contrast this with the U.S. policy toward the North after he 
talks about what he actually did in a bipartisan way vis-a-vis 
the south. And he notes that U.S. policy is never focused on 
the fundamental issue of abuse and total concentration of power 
in the hands of a minority. American diplomats, he writes, or 
will testify, have ineffectively chased disparate peace 
processes down disparate rabbit holes in Darfur, Abyei, the 
Nuba Mountains, Blue Nile State and the east, instead of 
focusing on a comprehensive solution to Sudan's authoritarian 
system of government. Negotiators have invested heavily in 
separate regional peace processes which have played right into 
Khartoum strategy of divide and conquer. None of the peace 
deals that have been struck have never been implemented, no 
attempt at justice or accountability has ever been seriously 
supported, including that of the International Criminal Court. 
The result is an unmitigated human rights and governance 
disaster. And he calls for a fundamental change in U.S. policy 
toward Sudan and makes a number of recommendations, including 
draconian financial sanctions against officials responsible for 
the attacks against civilians, a kind of micro targeting of 
sanctions, which I think would be very helpful.
    I would note--and I know you know this--both Bashir has 
been to China in June, Turkey before that, and I know the 
European Union leadership asked that Turkey deliver him, 
Bashir, to the ICC at the Hague, which did not happen. And 
China, obviously, didn't do anything either. An additional 
question in response to that analysis of U.S. policy, did we 
talk to the Chinese? Did we ask them to? We are signatory, even 
though we have not ratified the ICC, did we also convey to 
Beijing our concern that they hand over Bashir?
    Ambassador Lyman. Thank you, Mr. Chairman. Let me address 
several parts of those comments.
    I would just say at the beginning, of course, we can't say 
that all efforts of the peace process have been a failure 
because one of the main elements of the CPA was to secure the 
peaceful independence of South Sudan, and that did occur. And 
when I began----
    Mr. Smith. He was talking about the north, not----
    Ambassador Lyman. Peace agreements for the north only. 
Okay. Okay. Well, that is different.
    Mr. Smith. He was saying that is the model, and we seem to 
have been chasing, you know, a disparate strategy vis-a-vis----
    Ambassador Lyman. That goes to a point that I addressed in 
my opening remarks. Clearly, the fundamental issue that has 
created conflict in many parts of Sudan, the two areas that we 
have mentioned, Darfur, is this whole question of governance, 
this whole question of power sharing, of human rights, et 
cetera.
    That is an issue that is fundamental. The question is, what 
is our role in that regard? To be candid, the government of 
Khartoum thinks that the only interest we have is in regime 
change. They tell me that all the time.
    What we really want to do is to encourage the kind of 
change that is absolutely necessary for Sudan.
    We have sanctions on Sudan. We have individual sanctions on 
people that have perpetrated human rights. We have had 
sanctions in place for 8 years. They are some of the most heavy 
sanctions we have on any country in the world. They have had 
some effect. They, obviously, haven't had the effect that 
people would have wanted.
    And what motivates the government of Khartoum is not so 
much the sanctions as their own view of retaining power as they 
see it in Sudan.
    But I think all of us concerned care about these 
fundamental issues of governance, and encouraging that kind of 
change is all we can do. But reaching inside and forcing that 
change is something we probably can't do.
    Now, the attitude of other countries is important here. 
Yes, we have said to China and to others that they shouldn't 
invite the President, and we have made that point in every 
case. China has a very important role in Sudan, and we have 
urged China to use that influence both to avoid further 
confrontation with the South over the oil issues and to follow 
a peaceful process of political negotiation in Southern 
Kordofan and Blue Nile.
    I think they have conveyed those messages, but I cannot 
tell you how strongly or in what fashion they delivered them. 
But they say they have delivered those messages.
    On the attitude of our European friends, I think they are 
very much on the same wavelength as we are.
    But when we go into the U.N. Security Council, if you were 
to want to get more multilateral sanctions or, as I mentioned, 
even an independent human rights investigation, you find that 
there isn't unanimity of that approach.
    Mr. Smith. Which countries are objecting?
    Ambassador Lyman. I would say the African countries, South 
Africa, Nigeria, as well as China and Russia objected to an 
independent investigation of----
    Mr. Smith. Nigeria is the chair of the Security Council.
    Ambassador Lyman. They are now chairing it. The issue came 
up just before. So getting the kind of unanimity in the 
international community on such international issues is an 
upward battle.
    They have their own reasons. They take a different view of 
how to influence Sudan.
    So we work on those issues. We continue to push for an 
independent investigation of human rights, for example. We try 
to mobilize all of the other countries to emphasize the need 
for humanitarian access, and I think everybody is concerned 
about how Khartoum responds to these fundamental issues of 
governance.
    Mr. Smith. How hard have we pushed back with the allies and 
friends who have looked askance to some extent, like Nigeria? 
We are close to Nigeria, and we are close to South Africa. I, 
frankly, liked what Mr. Prendergast said when he talked about 
draconian sanctions. We usually use the word draconian to talk 
about the bad guys, but we need to become draconian ourselves 
in at least isolating--and I know you know this, and you have 
given them no quarter either. But you are not everywhere in our 
Government, and so the thought is, how hard do we push it at 
the U.N.?
    Ambassador Lyman. I know at the U.N., our permanent 
representative, Susan Rice, has certainly pressed these issues 
very hard, and we have addressed them when we meet with them. 
And it was true in our meetings with them up in New York during 
the General Assembly, and our Ambassadors raised them.
    They take a different view. For example, the African 
countries, Nigeria, South Africa, argue that there should be 
more incentives rather than sanctions, that they should be 
given more rewards for having gone along with the secession of 
the South. So they have a different perception of what would 
work to move--than we do and they feel very strongly about 
that.
    The Russians and the Chinese in general don't like to 
support sanctions. So I think it is a very fundamental 
disagreement as to how you approach the issue in Sudan, and we 
keep working with them.
    Now, we do work together on the negotiation, the Africa 
Union High Level Panel plays a major role in bringing about 
negotiations trying to find peaceful solutions. We work very 
closely with them.
    And I was in Beijing just recently to urge the Chinese to 
play a more active role in these areas.
    So it is a question of working with them where we can find 
common ground, recognizing that they take a different approach 
to how to motivate the Government in Sudan.
    Mr. Smith. Did anyone in our Government ask Hu Jintao or 
anybody below him to arrest and to facilitate the arrest of 
Bashir? I mean, as we all know, Bashir did not go to Ankara 
because of the pressure. Another reason was----
    Ambassador Lyman. We did convey to the Chinese Government 
that we thought it was wrong for them to invite President 
Bashir. That came from the White House. I don't have exact 
details. But I know that message was conveyed.
    Mr. Smith. Could you provide that for the committee? It 
could be very helpful to have that, because the stronger and 
the higher up, the better, obviously.
    Let me just ask you with regards to slavery, we will hear 
from Ker Deng very shortly, who, as you know, Christian 
Solidarity effectuated his rescue. Ellen Ratner, a journalist, 
helped to mobilize the effort to bring him here, and he 
recently got some significant surgery. And we will hear from 
him shortly. But he in his testimony said, I was treated worse 
than the animals I slept with. Like them, I was property. I was 
a slave held in Northern Sudan. But the animals weren't beaten 
every day. I was, every single day with a horsewhip; sometimes 
on my front, sometimes on my back, sometimes with my clothes 
on, sometimes not, but every day. The animals were fed every 
day, but I wasn't. And then he talks about how the chili 
peppers were rubbed in his eyes as he was upside down. Cruel, 
cruel torture, making him blind. And thankfully, the 
intervention--this will, we believe, lead to him regaining his 
eyesight and is in the process of healing. Can you speak to the 
issue of slavery? How many do you think? What are we doing to 
help free the slaves in Sudan?
    Ambassador Lyman. As you indicated, you have put a 
spotlight on this issue for some years, and it is--it is not 
only a tremendous human rights issue, but it is a source of a 
great deal of lingering bitterness among communities that have 
suffered. I found this in several trips to Sudan; that it 
remains a source of great bitterness.
    Some of the type of attacks in slavery were ended when the 
civil war ended and the South was able to gain its 
independence, but we still have people who are held. And we 
still have instances of it occurring in other contexts, between 
groups that engage in raids on other ethnic groups, sometimes 
in South Sudan, and capture children or others and keep them. 
So it is an ongoing issue, not quite the scale before, but 
still an ongoing issue. It is part of that general need in 
Sudan to establish a constitution that protects human rights, 
that investigates wrongdoing and brings people to 
accountability. That doesn't exist today.
    And it is the fundamental issue that divides the people of 
Sudan. Whether it is considered--felt to be ethnic, whether it 
is felt to be political, et cetera, when people are arrested, 
when people are enslaved, when people are dragged out of their 
homes, this is the fundamental issue in Sudan.
    And what we are urging and hoping is that there are people 
in Khartoum who say, this is not a path we can stay on, this is 
not a path that will survive, that we have got to change the 
political system. There are people inside the government of 
Khartoum who recognize this. The question is, how will they 
come forward and create a process that people have confidence 
in?
    We don't see it yet, but we think it is terribly important. 
Otherwise, there are going to be situations like Southern 
Kordofan, like Blue Nile, continuing trouble in Darfur. These 
are the fundamental issues.
    Mr. Smith. With deep respect, I would ask that you raise 
the profile of this labor issue. When I held that first 
hearing--and I did subsequent briefings and hearings--we even 
heard from a woman who told the story about how the door of her 
small home was kicked in, her sons were taken, were forced--
given Islamic names, forced into Islam, and she was beaten 
senseless. And she stood there--or stood here and told her 
story. It is a tool of war, just as rape is being used as a 
hideous method of war, so is that. So I just would ask you to 
raise the profile of it if you would.
    Ambassador Lyman. I will. Thank you.
    Mr. Smith. Mr. Payne.
    Mr. Payne. Thank you very much, Ambassador Lyman.
    As we have seen the problem in South Kordofan and the Blue 
Nile, what solutions--there has been criticism because it has 
been alleged that the SPLA supported their comrades in South 
Kordofan when they were being attacked by the Sudan armed 
forces. As you know, the SPLM in South Kordofan were aligned 
with the South, and it would sort of be unconscionable I 
suppose to allow the Government of Sudan to continue the 
atrocities they were doing without expecting that SPLM from 
South Sudan would respond.
    What is the U.S. expecting from the SPLM when the 
Government of Sudan is bombing and, as you know, went house to 
house, and what do you suggest as a resolution? Of course, we 
want to see a cessation of hostilities, but without the SPLM 
being able to protect themselves in South Kordofan, they are 
sort of left in an untenable position. What does the U.S. 
suggest that they do there?
    Ambassador Lyman. Well, Congressman. There is clearly a 
historical link and important links from the civil war between 
the SPLM and the SPLA in South Sudan and the elements in the 
North. But now that South Sudan is an independent country, this 
is an issue that takes place in another country; it takes place 
in Sudan across the border. And while we certainly understand 
those linkages, we don't think it is wise to encourage the idea 
on the SPLA side in those states anymore than on the government 
side that there is a military solution to this problem. And 
there are some who do feel that is the answer. This is the 
beginning of the revolution. And what we see is continued 
fighting with neither side being able to achieve a military 
victory.
    So what we would like the Government of South Sudan to do--
and I think President Kiir's visit this week with President 
Bashir offers an important opportunity--is to convey to both 
sides that there isn't a military solution in this area, that 
there must be political negotiations, that Government of Sudan 
will help in any way it can, the Government of South Sudan, to 
encourage and facilitate those negotiations. But we don't want 
this to become another North-South war. And for the South to 
engage militarily in those states does run that risk, and that 
would widen the war in a major way. And it would have 
consequences that I would not like to anticipate.
    So what we are asking of South Sudan is, be vocal on behalf 
of the fact that neither side can win a military battle here, 
that the fighting should come to an end and there should be 
political negotiations and to offer its good office in any 
other way it can to help bring that about.
    Mr. Payne. Well, the Government of Sudan has been unwilling 
to allow outsiders into Southern Kordofan. Where do the 
Ethiopian troops stand at this point?
    Ambassador Lyman. The Ethiopian troops are in Abyei. They 
are not in Southern Kordofan or Blue Nile. They have taken up 
their position in Abyei. And even though they aren't at full 
strength, they are at sufficient operational capability that 
they are arguing that the withdrawal from Abyei should now 
proceed immediately. The force commander is very good. He is 
very capable. And he has been urging the sides to adhere to the 
agreement, which is that there would be an unconditional 
withdrawal. And we have supported him in that regard, and this 
issue will come up at the U.N. Security Council on Thursday. 
And we see no reason for the delay that has taken place. There 
were various delays in this process. But right now it is the 
government of Khartoum that is not withdrawing its troops, and 
it is raising conditions that are not in the agreement. So we 
have to press for that.
    But on Southern Kordofan and Blue Nile, there is no 
international presence. The government has not allowed it. And 
that is one of our great disadvantages. Because even to get a 
good handle on the humanitarian situation, let alone the human 
rights situation, we don't have independent verification there. 
And we have pressed the government very hard on this--
Government of Sudan--very hard on this, the humanitarian issues 
are becoming overwhelming. And they do themselves no good by 
denying humanitarian access. And pressures are building up in 
this regard. People are looking at alternative ways of getting 
humanitarian assistance there. That is not in the interest of 
the Government of Sudan.
    So we think the humanitarian access issue is a top 
priority, and we think they ought to allow it. And I am sure 
that the SPLM will open its areas to any independent 
international organization that comes in.
    Mr. Payne. I agree that I don't think that continued 
hostilities, that it is certainly not going to lead to anything 
but worse conditions. However, the Government of Sudan refuses 
to allow even humanitarian assistance. And it is true, I was 
mixing Abyei and Ethiopia up with Southern Kordofan. But if the 
Government of Sudan continues to refuse to allow there to be 
some protection, you know, they are sort of baiting the SPLM if 
they, once again, have attacks on them. And I think that we 
should certainly also urge them strongly--I am sure you will--
that there needs to be some protection from a neutral party in 
Southern Kordofan to protect the SPLM-North that are there.
    As has been mentioned, we find that Bashir definitely 
refuses to cooperate. We feel that there perhaps even needs to 
be more pressure. I know there is some thinking in the 
Department of State that we should give kudos to the Government 
of Sudan for allowing the separation. But it seems to me that 
when we talk about easing sanctions as was--not by you, but by 
the previous Special Envoy, I just think that that is really 
going in the wrong direction because this government just seems 
like they simply defy all logic and just refuses to come with 
any kind of solutions.
    I know that there was a meeting in Uganda that you recently 
had. And I wonder, were there any kind of breakthroughs in your 
negotiations there?
    Ambassador Lyman. Well, thank you. I just pick up on 
another point you made, and it goes to a question you asked 
earlier, Mr. Chairman. When we talk to other governments, they 
often take the position that we haven't offered enough rewards 
to Khartoum. Our position has been, look, sanctions are there 
for a reason; they are there to change behavior, to signal the 
need for change. And the normalization process requires change 
on their part in terms of fulfilling the CPA and certainly 
ending the fighting now going on in Southern Kordofan and Blue 
Nile. Other countries say to us, we should have given them more 
at the beginning, but that hasn't been our policy.
    We think that the government faces now very severe economic 
problems. There is a $2 billion deficit in their budget for the 
balance of this year, $4 billion next year, because of the loss 
of oil revenues. They need to address these fundamental 
economic issues. And that means turning away from this war and 
these wars and engaging in a different set of both economic and 
political policies.
    But coming to your question about Kampala. I went to 
Kampala to meet with members of the SPLM-North, Yasir Arman and 
Abdul Aziz, and also with an element of the JEM, the Justice 
Equality Movement, from Darfur. And the point of those 
meetings, Mr. Congressman, was to say to them, what is your 
political platform? It is one thing to say you are against the 
regime or whatever, but what is the political platform that you 
are putting out there that if there was an opportunity for a 
political dialogue, what do you represent? It can't just be, I 
am against the regime. It has to be for something. And I think 
you will see in some of the material coming out from the SPLM-
North more along those lines of what a political platform would 
be.
    In relationship to Darfur, we now have a split taking place 
in JEM. Khalil Ibrahim has come back from Libya, apparently 
with a lot of weapons, and we foresee further fighting in 
Darfur. But another part of JEM has split off and said we are 
prepared to go to Doha and do further negotiations. So we have 
a split there. And we are trying to pursue a process whereby 
the government implements some of the things they have promised 
to do, but where the armed movements say we are prepared to 
negotiate, here is our political platform.
    Mr. Payne. I guess my time has expired, but there is 
continued frustration out of Darfur. I will be having a meeting 
in my district just this Friday coming up with the Darfur 
Coalition. And they are certainly disappointed at the lack of 
progress. I know that a JEM person has been appointed Vice 
President. But I am not sure that is going to solve the 
question. I wish that--and just I know that the oil sector is 
going to impact on South Sudan. One of the problems with U.S. 
businessmen is that they are confused. It is not that they are 
confused, it is they say our State Department--not you per se; 
everyone but you--are confused because they get confusing 
answers.
    And so Treasury says one thing, USAID says something else, 
Department of State says something else, National Security says 
something else. When do you think the policy will be clarified 
and we might have a single policy?
    Ambassador Lyman. Sometimes I get confused. The first 
point, as I mentioned, is that sanctions generally do not apply 
to South Sudan.
    Mr. Payne. Right.
    Ambassador Lyman. The issue in the oil sector is to 
determine when investments there have a benefit for the North, 
on which there are still sanctions. And quite frankly, the 
Treasury, and this is not a criticism of the Treasury, they 
have to issue guidelines along these lines, because a license 
will be required. What we would like American companies to do 
is to make application for those licenses, because that will 
help clarify what the dimensions of investments might look like 
and how we would structure the licenses to meet the 
requirements. We want American companies there. We want them in 
the oil sector, as well as others. And it is tricky, with all 
respect to the people working on it. But it would help. We only 
have one license request from an American oil company. So if we 
could get more, we would have a caseload on which to say, okay, 
these are the guidelines that make sense.
    Mr. Payne. Let me thank you very much. I recall about a 
decade ago we talked about a no-fly zone for Sudan that John 
Prendergast and some of us supported it, Joe Biden. Perhaps if 
we had had that no-fly zone then, perhaps we would have had a 
Libya-type situation, where we don't have a dictator like 
Ghadafi anymore. Maybe Bashir would have been gone by now. But 
we didn't do it, so we are still stuck with him. But thank you 
very much.
    Mr. Smith. Thank you very much, Mr. Payne. Mr. Lyman, just 
one final question. Dr. Prunier of the Atlantic Council does, 
in his seven recommendations, ask that the feasibility of a no-
fly zone be looked at. Is that something that is under 
consideration?
    Ambassador Lyman. It isn't under active consideration. I 
would just say this about it, and you can draw a little bit of 
experience from Libya. If you had a no-fly zone, you would 
still face a lot of artillery. And then the question is what do 
you do next? And Sudan has a lot of artillery, and it can be 
just as damaging. So the question is do we want to go down the 
path that way? And we have not indicated we want to go down 
that path. And it would be very complicated. And we would be 
alone. So I think right now, as far as the administration is 
concerned, it is to avoid going down a path of further war. We 
think the government needs to reconsider its rejection of the 
framework agreement. It needs to come back to negotiations, as 
they are being urged to do, and bring this to a halt before it 
gets totally out of hand.
    I want to say just one quick thing about Darfur. We haven't 
had a chance to talk about it. I just want to say a word about 
it, because Congressman Payne has raised it. It is a 
frustrating situation. Because you don't have a CPA, you don't 
have a structure. We have a peace agreement between the 
government and one of six now, six different armed groups, a 
split LJM, a split JEM, a split SLA. And you have some 
interested in negotiations, some saying we are not going to 
negotiate, we are just going to fight. So what we are trying to 
do is work on several different fronts here. One is the 
government has signed this agreement with LJM. They said they 
are going to set up a land commission, a human rights 
commission, a compensation commission. We are saying set them 
up. Let's see if you are really going to do these things and 
demonstrate that you are really going to move on these things. 
That might affect the situation. We are saying to the armed 
movements, as I mentioned when I met with JEM in Kampala, what 
is your political platform? You are fighting. What are you 
fighting for? What is the political platform that you might be 
able to sit down and negotiate?
    And finally, we are saying to the government, you can't say 
just because you signed with LJM, or one element of LJM, that 
everybody else has to sign this agreement, there is no further 
negotiations. That is not realistic. You have got to keep the 
door open to further negotiation. Now, it is not a perfect 
situation by any means, and I am very worried about renewed 
fighting. But we got to work on all three of these right now, 
because we have such a disparate situation in that area.
    Mr. Smith. Mr. Ambassador, thank you so very much for your 
testimony, for giving this subcommittee the benefit of your 
counsel and your recommendations, and your take on the 
situation, and for your leadership.
    Ambassador Lyman. Thank you. Thank you, Congressman Payne.
    Mr. Smith. I would like now ask our second panel if they 
would make their way to the witness stand. We will be beginning 
first with Mr. Ker Deng, a former slave from Sudan. He is a 
victim of modern day slavery. As a toddler, he and his mother 
were captured by Arab slave raiders who destroyed his village, 
and massacred the men. He grew up under brutal conditions, 
eating the same grains as the slave master's horses.
    When a goat escaped on one occasion, his master hung him 
upside down from a tree and rubbed chili peppers in his eyes, 
causing him to go blind. Mr. Deng was freed by Christian 
Solidarity International, and hopes that his recent cornea 
surgery will help him to regain his sight. His mother, along 
with thousands of others in southern Sudan, remains enslaved. I 
would note I mentioned Christian Solidarity. John Eibner, the 
president of CSI, is here. Dr. Julia Haller, chief of retinal 
surgery at the famed Wills Eye Institute, who actually 
performed the surgery, is here. Mark Ackermann, president of 
Lighthouse International, is also here. They are working on the 
rehabilitation. And Diane Gooch, who is an activist, and who 
actually traveled to Sudan and has worked for his release. And 
then just to introduce her, Ellen Ratner, by unanimous consent 
will be part of our panel.
    And I thank Mr. Payne for his willingness to accommodate 
this activist. An accomplished journalist, who works with Talk 
Radio News Service and Talkers Magazine, she has a long and 
distinguished career in the media, and she was at the news 
conference earlier. She became an activist upon attending slave 
liberations with Christian Solidarity International. And she 
worked very, very hard to help Mr. Deng be here today, to get 
out of the country, get his surgery, and be here today. And she 
will join us on the panel as the fourth witness.
    We will hear from Dr. Prunier, who is a nonresident senior 
fellow with the Atlantic Council's Michael S. Ansari Africa 
Center. He previously served as an adviser to the French 
Government, as well as a consultant for the U.S. State and 
Defense Departments, various European and African governments, 
as well as private companies. Dr. Prunier also served as a 
senior researcher at France's largest research organization, 
and directed a center for Ethiopian Studies in Addis. He has 
published over 200 articles and a dozen books, many of them 
focused on genocide in Africa, and especially in Darfur.
    Then we will hear from Mr. John Prendergast, who heads up 
the Enough Project. A human rights activist, best selling 
author, and co-founder of the Enough Project, an initiative to 
end genocide and crimes against humanity. He has worked for the 
Clinton administration, the State Department, and in Congress. 
He has also worked for the National Intelligence Council, 
UNICEF, Human Rights Watch, the International Crisis Group, and 
the U.S. Institute of Peace. He has helped fund schools in 
Darfurian refugee camps, and helped launch the Satellite 
Sentinel Project with George Clooney. Mr. Prendergast has 
worked for peace in Africa for over 25 years, and has been a 
frequent and a very welcomed and very esteemed witness before 
this subcommittee and the full committee. And I thank you for 
being here as well.
    I would like to now begin with Mr. Deng. We are going to 
show a taped video with Dr. Garang, and then we will go to Mr. 
Deng.
    [Video shown.]
    Mr. Smith. We are joined on the subcommittee by a long-time 
activist for peace and reconciliation and justice in Sudan, 
Congressman Frank Wolf. Chairman Wolf?
    Mr. Wolf. I just appreciate you, Mr. Smith, having the 
hearing. Mr. Payne. And you know, I just came to, you know, 
just support you. I guess Mr. Lyman has left. But this really 
can't continue. This has been going on for so long. But I just 
want to thank you and Mr. Payne. With that, I will end.
    Mr. Smith. Thank you very much. Mr. Deng.

  STATEMENT OF MR. KER ALEU DENG, EMANCIPATED SLAVE FROM THE 
                    REPUBLIC OF SOUTH SUDAN

    Mr. Deng. Hello.
    Mr. Payne. Hello.
    Mr. Deng. I am here today to tell you about my life 
experience as a slave, and how my life has changed since I got 
out of slavery. I am happy to be here right now to share this 
moment with you. I used to hear a lot about Washington, but now 
I am here. Even though I do not fully see everything around me, 
I feel it.
    I love American food, broccoli.
    When I was in the North, I never had some meals like I had 
here in the U.S. I didn't have good nutrition. So when I came 
here I was not used to eating every single day, three times a 
day, and I was worried about my weight. Now that I have been 
very fortunate to get out of the situation, I still think about 
those who are in the same situation I was in. All I want, I 
just want them to get out of the situation and have freedom 
just like I am now.
    So when I got out of Zacharia's house, who was my master, 
one day it just came to me that I have to go. Now I am free. I 
have to go back to my homeland, the South. When I was at 
Zacharia's, it was something unimaginable. Now, every now and 
then I have a relapse. Every single day it plays in my head. 
But I have hope that everything will be okay from now onward. 
So I am very happy to be meeting with all these people that I 
have always never thought I could meet.
    When I was in the North with Zacharia, I was basically like 
his goats. Like every single night I spent the night with his 
goats. And my mother would sleep in the garden. Every single 
day I warned Jalaliah. They give me a name, Habagah, and they 
made me to be a Muslim. While some of the people in the South 
were Christian, and I didn't even know that. So when I came 
back to the South, I decided to go to church.
    You have seen in me now what happened to me and how my 
situation was. You have heard it all. And it is not me alone. 
It didn't just happen to me alone. Many, many people in the 
same situation, they don't have the power, the means to get out 
of that. And they give us, they call them Jengae. That is the 
name. So it was very difficult. When you are in that situation 
you try to get out of it, but you are also afraid. If you try 
to escape, you are going to get caught along the way before you 
reach the South.
    So we stayed, and my mother would teach me my Dinka 
language, even though Zacharia prohibited us to speak our own 
language. Most of the time we speak Arabic. He taught us to 
pray in a Muslim way. You don't have any other God with this. 
So many other people are in the same situation. So Zacharia 
would take his kids to school, but not me. The school was far. 
I couldn't, maybe even if I wanted to sneak out and try to go 
to school. So I just heard about it, there is something called 
school. I didn't even know there were markets. I didn't see any 
other person who looks like me.
    So after Zacharia had tortured me, got me blinded, and I 
was no longer useful to him, I got into the care of the other 
man called Bakit. Even though he tried to give me good care, he 
didn't have medicines or anything like that to treat my eyes. 
So when people got me out of slavery and went back to Sudan, I 
got along with them. I just wanted to come back to the South. 
So we walked a long way from the North back to the South many 
months.
    So when we came back to the South, we gathered in the same 
place. So people came and saw us, asked us where we were coming 
from. We didn't even know where to go and how to start our new 
life in the South. And then the Christian Solidarity, that is 
when they came in. We were hungry. So they tried to feed us, 
give us some food, provide. And the same organization got me to 
America today. So Momma Chicken is right here, the one who 
brought me here. I am very happy for the job that she has done 
in my life. I wouldn't have been here today without her.
    I just wanted to let you know that there are still many 
people in the same situation I was in. They don't have the 
means to get out of there, but they want so badly to get out. 
Like during Ramadan, they were never given a chance to, and 
many horrible things were done to them. If they had the power, 
they would have left a long time ago from the North. So many 
things, I have no words to describe everything that went on 
with us in the North. I know that you have the power to get 
them out of there so they can have their freedom like I am now. 
I am very happy. And thank you all.
    [The prepared statement of Mr. Deng follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Deng, thank you so very much for your 
testimony, which gives all of us a great deal of hope. But with 
so many people still remaining in Sudan enslaved, the challenge 
is formidable. And we need to, all of us need to do more to 
liberate those slaves. Without objection, your written 
testimony will be made a part of the record. And you are a 
very, very articulate man. Knowing that you couldn't read your 
testimony, all of that was done extemporaneous. So thank you so 
much again for your testimony. Dr. Prunier.

STATEMENT OF GERARD PRUNIER, PH.D., NONRESIDENT SENIOR FELLOW, 
       MICHAEL S. ANSARI AFRICA CENTER, ATLANTIC COUNCIL

    Mr. Prunier. Mr. Chairman, Ranking Member Payne, 
distinguished members of the subcommittee, I would like to 
thank you for the opportunity to testify today on the current 
situation in the Sudan, and to comment, perhaps, on the policy 
options that would be available to the U.S. in this respect. I 
am not a humanitarian, I am not a political activist, but I am 
an academic. So perhaps I will take this opportunity to try to 
go back into the deeper background of the present situation.
    What we are witnessing now, stretching from south Darfur 
all the way to Blue Nile, is not a violation of the peace or 
humanitarian crisis; it is something much bigger, much more 
serious. After 56 years of conflict, this is probably the last 
stage of a fundamental and massive restructuration of the very 
basis of Sudanese polity. Sudan has never been a nation-state. 
It is an arbitrarily cut chunk of the African continent, which 
its Ottoman conquerors slapped together during the 19th 
century. It was a mixture of three, not two, basic strands of 
humanity, cultural Arabs, African Muslims, and African animists 
who later converted to Christianity. That polity was dominated 
by the first group of people, to the detriment of the two 
others under the Turks, under the British, and since 1956, 
under the independent Government of the Sudan Republic.
    The religious contradictions appeared to loom very large, 
and were, at first, thought to be the main, if not the only 
ones, leading to two extremely long civil wars, the first one 
between 1955 and 1972, the later one between 1983 and 2002. But 
one thing many observers often missed at the time, the Islamic 
culture was, in terms of size, the dominant one, but the Arab 
culture was not. In other words, the Arabs are a minority in 
the Sudan. And the fact that the Muslims are a majority, the 
two were often confounded. This put the Black African Muslims 
in a tremendously ambiguous position. During the first war, 
they sided with the Arabs, and most of the fighters, most of 
the soldiers fighting in the South killing Black Africans were 
other Black Africans, not Arabs. But during the second war, the 
clear message of guerilla leader John Garang de Mabior insisted 
on culture and economic marginalization, not religion. Garang 
was not fighting for the independence of Southern Sudan, he was 
fighting for more equal, more democratic restructuration of the 
whole of the Sudan.
    As a result of this new ideology, African Muslims switched 
progressively from siding with the Arab minority to aligning 
themselves with the Southerners, either by joining the SPLA 
directly, as was the case of the Nuba in Southern Kordofan, or 
else by starting anti-Khartoum insurrections of their own in 
Darfur and along the Bija populations of the east.
    The problem came to a head in January 2005, when the 
Comprehensive Peace Agreement was signed, because this 
agreement treated the conflict and its solution in a binary 
manner. On the one side, the Arab North versus the Southern 
Africans. On the one side, the Arab Muslims versus the 
Christian Blacks. But what about the problem of those 
populations who were Black Africans and Muslims? Northerners, 
but fighting alongside the South? The agreement had nothing for 
them apart from a very vague mention of popular consultations, 
which carried no political weight, and carried no legal 
obligation in the postwar period. What we see now is a refusal 
of that very large section of the Sudanese population, 
basically one-third of it, to fit on the Procrustean bed, where 
their hopes and aspirations are supposed to die.
    One-third of the population neglected and made invisible by 
the CPA, in spite of the benefits it could have for the South, 
is revolting and fighting from Darfur to the Blue Nile Province 
by way of Southern Kordofan. It started with the nonresolution 
of the Darfur war in the unrealistic Doha process, which has 
not put an end to the conflict at all. It went on with the 
attempt at disarming the Nuba SPLA forces in Southern Kordofan, 
which was legal from the point of view of the CPA, but which 
was a completely unrealistic move because these people were the 
guarantors of their community. And it ended in June with the 
government attacking the elected SPLM governor of Blue Nile, 
Malik Agar, in an attempt at reducing any manifestation of the 
political force with which it was faced.
    This now means open war from the border with Chad to the 
border with Ethiopia, clear across the whole country. 
Considering the situation, what are the possibilities now open 
for a constructive U.S. approach to this massive structural 
crisis? First of all, I will have to disagree with the special 
envoy. Getting Khartoum--but, of course, in his position this 
is quite normal that he would say so--getting Khartoum to 
genuinely negotiate peace is an unlikely prospect. Why? The 
present regime is, after 56 years, the last rampart, the last 
protection of Arab domination in the Sudan. And its track 
record hardly suggests flexibility and adaptability.
    The second point I would mention--there are seven of them--
is that Sudan's neighbors probably have a better access to the 
problem, particularly in the case of Ethiopia and Uganda. Their 
initiatives to attenuate the effects of the conflict should be 
helped and supported.
    The third point is the ways and the means to help the 
victims, because the war will go on. Regardless of what we 
might want, the war is the last resort of the people who have 
been completely marginalized as a result of the CPA, and it 
will go on. So ways and means to help the victims, regardless 
of Khartoum's claims about the fact that they are bandits or 
rebels, should be helped and furthered.
    The fourth point is that consultations with the Juba 
government and military support to the Southern Sudanese 
authority are necessary to help them guard themselves against 
Northern destabilization attempts. These are going on now, and 
they will go on. They are a kind of quid pro quo of what is 
going on in the strip between North and South.
    The fifth point is to discourage Eritrean intervention in 
the region. It has already occurred with the help that Eritrea 
has tried to bring to the George Athor group. We have seen what 
the Eritreans have done in Somalia. It is still going on in 
Somalia. And very likely, given the desperation of the Eritrean 
regime, they will try to fiddle with that situation in a most 
nefarious way.
    The sixth point is that there should be contacts with the 
SPLM-North. And I was extremely happy to realize that the 
special envoy had taken the important step in Kampala of 
meeting with them. Because their representativity should be 
heightened, their visibility should be heightened, and they 
should be helped, also, with the possibilities of alternative 
humanitarian help that they can do for the war situation where 
access would be denied to ``foreigners.''
    And finally, something which is not very easy technically, 
would be trying to restore a no-fly zone from the base in 
Djibouti. Now, as the special envoy was saying, this is not a 
solution for the whole war problem. There is artillery indeed. 
But then we have seen in Libya that airplanes can knock down 
artillery forces. So the no-fly zone maybe could be extended 
for further benefits. So I thank you for your attention, and I 
look forward to questions.
    Mr. Smith. Doctor, thank you so very much.
    [The prepared statement of Mr. Prunier follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. And now Mr. Prendergast.

   STATEMENT OF MR. JOHN PRENDERGAST, CO-FOUNDER, THE ENOUGH 
                            PROJECT

    Mr. Prendergast. Thank you very much, Mr. Chairman, members 
of this subcommittee, and for you three human rights champions, 
Congressmen Smith and Payne and Wolf, for all the efforts that 
you have made to shine a bright light for so many years 
actually on the plight of the people of Sudan and South Sudan.
    Mr. Chairman, since you stole what little thunder I had by 
reading parts of my testimony to Ambassador Lyman, I thought I 
would have to get a little creative. So I want to pick up on 
something that Ambassador Lyman testified on. He talked about 
the importance, and as President Obama said directly to 
President Kiir when they met in New York at the United Nations, 
the very strong emphasis the United States has on trying to 
stop the South from giving any kind of support to the people in 
the Nuba Mountains, and Blue Nile, and even in Darfur, and 
their very strong opposition, at least stated at this point, to 
any idea of doing proactive civilian protection, such as the 
kind of things that you have been very strong in asserting, at 
least consideration of ideas like a no-fly zone.
    And I want to look empirically at what happened over the 
last 10, 15 years, and why I think that is very injudicious as 
a means of basing your policy toward the North, toward Sudan, 
and the potential for conflict between North and South. Because 
if you look at the way we have dealt with this issue of our 
relationship with opposition movements, we have demanded that 
the South and other elements within Africa not support the 
SPLA-North. We, in fact, went further on the Darfur front, and 
demanded that the Chadian Government stop its support of any 
kind for the Darfurian rebels. And we, of course, were at the 
time, as you pointed out, or as Congressman Payne actually 
pointed out in his cross-examination of Ambassador Lyman, we 
opposed, the United States opposed any kind of no-fly zone 
during the last decade in Darfur, as there had been calls for 
that.
    So the result has been, interestingly, a weakening of the 
rebellions, a splitting of the rebellions, which makes it 
actually less likely that they will come to the table and 
negotiate and be able to deliver a real peace deal. It makes it 
unlikely, more unlikely that the Government of Sudan will come 
to the peace table and negotiate with elements inside Sudan 
that are actually strong enough to exact concessions.
    The one and only exception to that is the referendum in the 
South. Because the United States, led by the Congress over the 
last 15 years, stayed very, very supportive of the South 
Sudanese aspirations for self-determination. We were 
unwavering, Congress was unwavering, the activists that cared 
about this issue were unwavering. And every time the Clinton or 
the Bush or the Obama administration sort of swayed off to the 
side, Congress batted them back to where they should be. And we 
were front and center right behind General Sembeiywo in 
negotiating the deal that got the self-determination 
referendum, called the CPA, the only, by the way, element of 
the CPA that was implemented. Then we stayed on the ball, 
actually dropped it for a while with General Gration, and 
picked it back up because history never ends. And President 
Obama himself led the policy process, and we led the 
international community to back the South Sudanese heroic 
efforts to have that referendum held on time and peacefully.
    That is the successful model, of us being supportive of 
opposition demands for change, not running away from them, not 
finding ways to undermine any kind of support to the 
opposition. It simply flies in the face of the facts of our 
history here in Sudan.
    So I want to just use the rest of my time to go straight to 
the policies that I think the U.S. should be pursuing now in 
Sudan. And the trigger, you know, today we may not be able to 
get President Obama's attention to alter this policy 
immediately. But I do think people streaming out of the Nuba 
Mountains and the Blue Nile, the way they are doing out of 
Somalia now, because they are starving to death, because the 
Government of Sudan--2 or 3 months from now--because the 
Government of Sudan is blocking and denying humanitarian 
access, and using food as a weapon of war, as they have done 
over the last 22 years of their rule in Sudan, I think that 
will be a potential for a trigger.
    We have needed triggers of street protests in Egypt. We 
have needed triggers of the march across Libya that the Ghadafi 
forces. We needed the guy literally setting himself on fire in 
Tunisia. We need triggers. And I feel like this potentially 
could be a trigger. And we need to be ready, those that have 
advocated for so long for a stronger policy, to push the Obama 
administration to go in the right direction. The three areas I 
think we should focus on are democracy, protection, and 
justice. And these are very consistent with everything that 
this subcommittee and you, Congressman Wolf, have pushed for 
for so long. And I want to just get very specific quickly on 
each of those three areas.
    On the democratic transition side, we have so many levers 
of being supportive of opposition elements within a country 
that is authoritarian. There are the above-board efforts that 
we all know about that we have all supported, the NDIs and 
IRIs, and all the kind of political party development and civil 
society support. There are also under the table ways of doing 
it. And I think we need to look at all those ways of 
strengthening the opposition now in the face of this 
authoritarian regime in Khartoum.
    Secondly under democratic transition, I think having and 
building unified support internationally for elections that are 
internationally monitored. It probably won't happen, but at 
least we are leading with the right principles. And now we have 
sort of capitulated on basic principles. We are not dealing 
with what we ought to be fundamentally dealing with. As 
Ambassador Lyman acknowledged, the fundamental issues are the 
abusive governance at the center of the country. Well, one way 
you get at that is democratic elections. And there are elements 
within the regime that want this, elements within the regime 
that don't want it. So push it and help create divisions 
within.
    The third piece on the democratic transition side is we 
have wasted years chasing all these different peace processes 
in Darfur and in Southern Kordofan, Blue Nile, and East, and 
all these other places. And now we are going to take the 
unusual step of bringing the Darfurian parties, some of them, 
to Washington at the end of this month, and waste more people's 
time. Instead of cratering that process, accepting and 
acknowledging that it was dead a long time ago, the Doha 
process, and folding our peace efforts into a national strategy 
that addresses all of the core issues at once. All the regions 
share the same problems. They are cut out of the pie, the 
division, the slices of the pie politically and economically. 
That has to be restructured. The constitution has to be 
revised. And we have to end up with elections that allow people 
of Sudan to just choose their leaders. That is the democratic 
transition part of it.
    The second part is civilian protection. This is the one 
where we get all hung up on, everybody gets very agitated, and 
we spend a lot of time divided. First, I think everyone agrees, 
but unfortunately the administration hasn't moved on it, that 
we need to have those really harsh sanctions. We don't need to 
crow about it. We just need to go after the businesses, really, 
it is the businesses that the senior members of the National 
Congress Party are financing. The military-industrial complex 
that keeps this country afloat, that the Iranians have invested 
heavily in, this is where the money is, let's go after it. And 
if we can't freeze those accounts, then let's identify it and 
publicize it, and show the people of Sudan how this regime is 
stealing all of the oil money and keeping it in the hands of a 
few people. So there is at least the idea of exposure, even if 
we can't get at those assets to be able to freeze them. So that 
is the first element of civilian protection.
    The second element is really pushing the administration to 
look at how do you protect those people in the Nuba Mountains, 
in Darfur, in Blue Nile from these aerial attacks? The reason 
why I would differ with Ambassador Lyman, and Gerard just got 
to the point right away, is that, yes, of course they have 
artillery on the ground. But the biggest advantage that the 
government has had in all of these conflicts in Sudan has been 
their air superiority. Take that away from them, and you 
suddenly get the hurting stalemate that the North and South had 
to get the CPA to get the referendum.
    Absent the hurting stalemate, absent removing the air 
advantage, the war actually would go on longer, which is 
precisely what he said is what will happen if we actually do 
these things. So I feel like our analysis of that is completely 
the opposite, is this would actually accelerate a peaceful end 
to the conflict, as opposed to throw gasoline on the fire.
    And then, of course, third point under civilian protection, 
and this is the one we can have a big difference right now, to 
prevent those people from streaming out of Nuba Mountains and 
Blue Nile starving to death 3 months from now, we need a cross-
border program of humanitarian assistance right now. The United 
States did it in the South. The U.S. and Europe did it in the 
South in the 1980s before Operation Lifeline in Sudan. We did 
it during the time of Mengistu during the great famine in 
Ethiopia, where we initiated the cross-border operation to save 
millions of lives in Ethiopia and Eritrea. We can't sit back 
and just beg the Sudanese Government to let humanitarian 
agencies in to stop starving their own people. We need to jam 
them by pushing food assistance through the border, like we 
have done in other places. It is not like this is the first 
time. We don't have to reinvent the wheel.
    Finally, support for justice, and I will close very 
quickly. We need to increase our support for the apprehension 
of those already--arrest warrants have already been issued for, 
including the President. And your follow-up comments, 
Congressman Smith, were very helpful during Ambassador Lyman's 
testimony, in that way, going after the countries that are 
supporting his visits when the President goes and visits these 
countries. And then especially that further cases of the 
International Criminal Court be opened of specific senior 
members of the National Congress Party that are most 
responsible for the atrocities, not only that have been 
committed in Darfur, but also in the Nuba Mountains, Blue Nile, 
and Abyei.
    And if any of these things happened, anything we have 
talked about today, your recommendations and ours, it will 
only, I believe, be because Congress takes a leading role, just 
like you have over the last 20 years, in crafting a meaningful 
U.S. policy and demanding meaningful U.S. action, action that 
in the case of Sudan can actually save millions of lives. Thank 
you.
    [The prepared statement of Mr. Prendergast follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Prendergast, thank you very much for your 
testimony and your leadership. You talked about us being 
battlers. Well, you have been a battler-in-chief. And I applaud 
you for your profound impatience with the situation as it is. 
Because no matter who is in the White House, you have been 
consistent, and you have been absolutely bold. So thank you for 
that. And we all know that the people who have been so 
malaffected, thank you, even though they may not know how you 
have raised your voice and your actions on their behalf. I 
would just point out, and I didn't say this earlier, but Agha 
Deng, who was the translator for Mr. Deng, is a Lost Girl 
herself. She lived in a refugee camp from the age of seven, 
spent 10 years without her parents, apart from her parents. And 
so she too is a very noble and courageous young woman. And 
thank her for her courage and for being here today. I would 
like to now ask Ellen Ratner if she would present her 
testimony.

           STATEMENT OF MS. ELLEN RATNER, JOURNALIST

    Mr. Ratner. I will go quick. Thank you, Chairman Smith, 
Ranking Member Payne, and members of the subcommittee. My name 
is Ellen Ratner. And since 1993, I have been a journalist here 
in Washington, and I have been privileged to cover Capitol Hill 
and the White House as a member of the Radio-TV galleries here. 
My interest in South Sudan began when, as political editor of 
Talkers Magazine, I was approached by Joe Madison, a well known 
radio colleague, who suggested that we form a diverse group of 
hosts to travel of what was then Southern Sudan. We brought 
with us six hosts, each representing a different point in the 
political spectrum, from left, right, and center.
    The humanitarian organization, Christian Solidarity 
International, arranged and guided our trip. I have traveled 
extensively through the third world. And despite our religious 
differences, I am Jewish, I have been very impressed with the 
Christian Solidarity International's impressive work, low 
costs, and efficiency.
    Our first visit was in March 2008. It moved me greatly. We 
met with the President of South Sudan, President Kiir, and then 
went to Gok Machar in Aweil North County, where we slept with 
tents and saw abductees who have been liberated from the North. 
I say abductees because it is not politically correct these 
days to use the word ``slave.''
    In the late 1990s, Bashir's government in Khartoum 
successfully pressured the United Nations agencies and many 
members of states to refer to Sudanese slavery as abduction and 
slaves as abductees. However, as a member of the press and as a 
radio person, I call things as I see them without political 
niceties. And let me assure you and assure the subcommittee 
what is happening is slavery, plain and simple. People are 
being beaten, stabbed, raped, and having their throats slit. 
The violence and murder is committed because these individuals 
are considered by their captors as war booty. In the minds of 
their captors, they are outside the law, they can be beaten, 
raped, insulted, branded, and even killed with impunity.
    If there is anyone on the subcommittee who doubts the 
horrible reality of Sudanese slavery, come with me to South 
Sudan. I would be glad to take anybody in this room. After my 
visit, I came back came back to tell the story, and I have 
returned to Sudan regularly. I just left there on Saturday to 
attend this hearing. And even these hearts, the heart that I am 
wearing right now is made by women who have seen at least one 
person killed in front of them and are in a PTSD recovery group 
there.
    In the course of these visits, my life has been profoundly 
changed by a blind teenager, Sudanese boy named Ker Deng, who I 
am sitting next to. He is a member of the Dinka tribe of South 
Sudan. I met Ker in September 2010, when I was asked by John 
Eibner of Christian Solidarity International, to help him. John 
knew that I too had lost vision in one eye. And after four 
retinal detachments, what I have in my right eye was saved by 
Dr. Julia Haller, who is now the ophthalmologist-in-chief at 
Wills Eye. And she is also the surgeon who guided the team for 
Ker's surgery. I also serve on the board of Lighthouse 
International. And Mark Ackermann, who is the president, is 
here as well. And since I enjoy some of the access to the best 
eye surgeons, I came to serve as Ker's sponsor in the United 
States.
    You have heard Ker's story, so I am not going to review 
that, although it is in my written record. And I want to say 
that every time I look into Ker's damaged, unresponsive eyes, I 
sense the unspeakable suffering endured by him and his mother, 
and the countless others still being held. I certainly heard 
about slavery growing up. I grew up Jewish. I attended Passover 
services for 2 nights every year, and I have heard about 
slavery. So the whole idea that it is happening currently very 
much moved me.
    The world has really known about the horrible reality of 
Sudanese slavery in our time. And it is that Americans, I 
believe, should be paying attention to this. I certainly have 
been talking about it on radio. The 2000 peace accords ended 
hostilities in South Sudan, and also the North Sudanese 
Government sponsored slave raiding, but negotiations have 
failed to produce a mechanism for the liberation and 
repatriation of slaves held in the North like Ker and his 
mother. We are very much working with the Arab slave retrievers 
and Christian Solidarity International to try and get Ker's 
mother out of slavery.
    And in 2000, then-Secretary of State for African Affairs 
Susan Rice said we have an obligation not to speak out, but to 
ameliorate the suffering. And despite official condemnations 
and blue ribbon panels, there has been little done by the U.S. 
Government or U.N. agencies--and, by the way, we also cover the 
United Nations at Talk Radio News--to ameliorate the suffering 
of South Sudanese slaves.
    Mr. Chairman, Mr. Payne, members of the subcommittee, it is 
time to take affirmative steps. Christian Solidarity 
International, in concert with thousands of people in good 
will, regardless of race or religion, have stepped in to fill 
the void. Diane Gooch has certainly been a partner in our work 
there, and certainly Tony Sayegh have been working with her 
with Christian Solidarity. Slavery is an internationally 
recognized crime against humanity. And effective action by the 
United States and the international community is long overdue. 
And I am hoping that today's hearing and Ker's testimony 
inspire our Government, along with Christian Solidarity 
International and other NGOs, to do something about this 
horrible crime. Thank you.
    Mr. Smith. Ms. Ratner, thank you so very much for your 
testimony, and for your very strong and principled advocacy. It 
is certainly, I think, having a profound impact.
    [The prepared statement of Ms. Ratner follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Let me ask just a couple of questions of our 
distinguished panel. And I did, as you know, Mr. Prendergast, 
borrow some of your testimony to ask Ambassador Lyman. I think 
it is important. Very often I think we ought to try to reverse 
the order, but protocol usually wins out, and the 
administration goes first. So they don't get to hear what you 
have to say, which is why I tried to tee that up for him to try 
to get a response. So I thank you all for your testimony. 
Without objection, all of your written testimonies will be made 
a part of the record.
    Mr. Prendergast, you mentioned that the opportunity for 
more aggressive action may come in the next few months, when 
the denial of humanitarian assistance, which will skyrocket, as 
you say in Southern Kordofan, Blue Nile, and, you know--so 
early warning, it is coming. It will be very severe. 
Skyrocketing is, I think, an apt description. Do you think that 
the international community grasps that, as well as our own 
administration?
    Mr. Prendergast. It doesn't. And I think that, you know, 
with the competing crises in the region to the north and east, 
with Arab Spring, with the Somali famine, and other things, 
that it just isn't--you know, something that is on the next--
over the next horizon is just not going to be prioritized as 
much as the things that are on this horizon. And especially 
with Libya and Syria unfolding now, and the Somali famine, and 
the effort that is going to be necessary to try to stop tens 
and tens of thousands of children from starving to death, you 
can understand why.
    And with all the things coming at people, they just ignore 
the thing they don't have to worry about for another few 
months. Well, our job as activists, and yours of course, and 
you have taken this on so strongly, both of you, as the 
legislative branch, is to take the battering ram and hammer it 
against the door of the executive branch until they listen. And 
the people of Southern Kordofan, the people of Blue Nile, and 
we have already seen the displaced, ethnically cleansed people 
of Abyei strewn like rubbish all over the northern part of Bahr 
el-Ghazal, we have seen what has happened with 8 years of this 
kind of a strategy in Darfur, and we just want to get ahead of 
that. And this is an opportunity now to take some bold actions, 
particularly, first and foremost, on the humanitarian front, to 
get the cross-border humanitarian assistance through the 
courageous NGOs that are willing to deliver that assistance, 
both Sudanese and international, get that assistance in and 
break the attempt to try to create starvation as a principal 
weapon of war, which the government has used so effectively for 
so many years.
    So my feeling is that our job is to push and push, get some 
early action. But the sky will open up, I have no doubt, in the 
next few months. We will have an opportunity in the next few 
months to push a more aggressive policy. We just need to be 
there with a unified position about what the things are we 
expect from the Obama administration, the legislative branch, 
and civil society working together, pushing those people within 
the administration. Because there are very good people in the 
administration who do want to make a difference, including--
well, we can go on, the list goes on of all kinds of people 
that have a long history on Sudan advocacy. So I think that it 
isn't like they don't want to do anything. We just have to push 
it up to the top of that pyramid that is constantly pushing 
issues like Sudan down and say, no, it is time now for the 
people, or hundreds of thousands will die.
    Mr. Smith. Ambassador Lyman, in response to a question, 
said that Nigeria and South Africa have not been as helpful. 
They come at this from a whole different perspective. I would 
appreciate your view, especially with Nigeria as President of 
the Security Council for this month. It seems to me that some 
very aggressive work on their part, if they could be persuaded, 
could help mitigate this additional looming crisis on top of 
the already existing crisis.
    And, Dr. Prunier, you might want to speak to that as well, 
Mr. Prendergast and anyone else.
    Mr. Prendergast. I think that, you know, it certainly has 
been the case that some of the members of the African 
delegation, African Union delegation, that have made their way 
to the Security Council have been difficult on the issue of 
Sudan, and others have been forward leaning. Right now we have 
two countries, as you point out, that have been unfortunately 
some of the biggest obstacles to getting any kind of human 
rights advocacy moved forward in Sudan today.
    And so I think what is required, and having done it when I 
worked for the Clinton administration, you have to go--you have 
to send senior emissaries from the White House to their version 
of the White House in Pretoria and Abuja and talk frankly about 
our shared interests and where we are going on this stuff.
    Mr. Smith. And that has not been done?
    Mr. Prendergast. And do it frequently.
    No, it is talking point 37 in a demarche by the Ambassador, 
our Ambassador, going in and doing his regular meetings. That 
is not--it just isn't going to get anyone's attention. It has 
to be a priority. Again, we don't have to advertise it either. 
Not every diplomatic venture the United States takes has to be 
in the headlines. We can go quietly. They will appreciate that.
    Let us do the kind of diplomacy that actually gets results 
with Africa instead of just waiting until the thing is a 
traffic jam and then sort of issuing, well, they should do 
this, they should do that publicly. Now, that will dig them 
deeper into a trench against taking formal action. So I think 
that is the kind of diplomacy, proactive diplomacy, we need to 
see on behalf of an issue that matters so much to the American 
people and matters so much to the United States Congress.
    Mr. Prunier. I might add a little caveat to that. I have 
lived over the past 8 years in Addis Ababa, and I have been in 
constant contact with the African Union. There is a very 
special feeling there. The indictment of Bashir was taken as an 
insult to Africa. It is very difficult, but you are trying to 
talk with people. They say, well, the victims are Black 
Africans. Yeah, but this is an insult to Africa. And, you know, 
you--this is the same thing that we saw with this lost stamina 
of support for Ghadafi.
    There is a kind--I would quote Julius Nyerere on this when 
he had a big fight with the Organization of African Unity in 
1978, when he was invaded by Idi Amin and they refused to help 
him. And he said, ``You are not the Organization of African 
Unity, you are a trade union of heads of state.'' And these 
were very harsh words. Nyerere was a very plainspoken, direct 
man. And the same phenomenon is at work. It is not that they 
love Bashir. It is a group thing. And for the United States to 
try to dictate another position would be extremely difficult.
    Mr. Smith. Let me just ask you, If there were a court like 
the Sierra Leone court, headed so well by David Crane, or the 
Rwandan court, which were regional courts, would that have been 
more acceptable? It seems to me that just because it is housed 
at The Hague, it is the International Criminal Court--you know, 
it is very superficial. I certainly can understand, and I know 
you are conveying what you found, but when monstrous deeds are 
committed, would a regional court have been more effective?
    Mr. Prunier. Yes. But I cannot see a regional court 
happening. Who would be part of that regional court? The only 
countries that would love to have such a regional court would 
be Uganda, Kenya and the usual gang of suspects. And I am not 
sure at all that this would happen as an internal part of the 
AU debates.
    Mr. Smith. Yes.
    Mr. Prendergast. One of the things that is important to 
point out is I think--and I think Gerard and I would agree on 
this--is that, you know, the fact that the first few cases that 
the ICC took up were African, you know, and that----
    Mr. Smith. Milosevic, although that was----
    Mr. Prendergast. That was a regional court. And it 
appeared--and then Bashir gets the arrest warrant against him. 
And as Gerard is saying, it appeared to be the International 
Criminal Court against Africa, two heads of state, you know, 
who is next, you know, because many of them have human rights 
abuses that could potentially rise up. And now we are seeing 
the Ivory Coast being looked at, we are seeing Libya and a 
number of other countries.
    I think that as time goes on, and the ICC widens its lens 
to other regions and begins to pick up on these issues, it will 
become less of a sting, a difficulty, less of a solidarity-
based rejection by a number of these heads of state. But right 
now it is--the phenomenon is, as Dr. Prunier said. However, 
quiet diplomacy in support of specific interventions, like 
having an international investigation of what goes on, what has 
gone on in the Nuba Mountains and Blue Nile, these kinds of 
things, working quietly on some of these things could yield 
fruit. It is not a guarantee, but we need to try a lot harder 
than we are trying now, and to do that, you have to send 
representatives from Washington.
    Mr. Smith. One last point on the Court. Do you feel the 
U.S. Government sufficiently weighed in with Beijing to--when 
the visit occurred with Bashir to get them to do something 
constructive? I know they are not signatories and all of that, 
but, I mean, the hero's welcome that he was afforded was 
unconscionable.
    Mr. Prendergast. I will go ahead, too, also. But unlikely 
it could have changed their view, but we should have been 
stronger.
    Mr. Prunier. You could have done it, not immediately. But 
the Chinese are lost. When you talk to them, they are trying 
now to get on better terms with Juba. At the same time they 
don't want--because Khartoum is their old ally. They are new 
imperialists. They are not really used to this situation. And, 
of course, they would not accept immediately an injunction of 
the United States, but the idea would make its way because they 
themselves are uncertain about what to do.
    Ms. Ratner. I just want to say one thing. I travel around 
the world. I am in Grenada and the West Indies quite a bit, and 
in Sudan and other places in the world, and the Chinese are 
there, everywhere. I mean, our presence is minor often compared 
to the Chinese and difficult unless we put some pressure on 
them.
    Mr. Smith. Well, they all have their own human rights 
atrocities to account for as well. So dictatorships don't 
usually put people first.
    Let me ask with regards to your statement, Mr. Prendergast, 
about draconian financial sanctions against officials and their 
associated businesses responsible for attacks against citizens. 
As you know, in April 2006, President Bush did an Executive 
order. I think it only included four people. It seems to me 
that list and the annex should have been much larger. But has 
that been implemented in any way?
    And I think when you get to the businesses and the 
connections in terms of a personal sanction--government 
sanctions are important, but when you go after and target 
individuals, that might have a more chilling effect and 
hopefully an accountability effect as well.
    Would you recommend, any of you, that the administration 
promulgate a new Executive order, an expanded one building on 
this one, to hold individuals to account?
    Mr. Prendergast. I think that was a really insightful 
moment. Again, trying to understand--because we are all--at the 
same time as we are advocates for a stronger policy, we also 
need to be students of what has gone on before. If you 
remember, Andrew Natsios articulated this whole idea of a plan 
B, that we were going to--if they don't do X, then we are going 
to do Y. And Y was plan B, and it was going to be this very, 
very strong series of deep and biting unilateral sanctions 
which we would work to multilateralize aggressively, and talked 
a big game about it, and then we didn't do it.
    We, as you said, put a few--all they do is change the name 
of the company, and it is no longer the next month--I mean, it 
is just silly. So you have to chase and have active 
intelligence that focuses on all of these very wily efforts 
that the private sector in Sudan and their international 
counterparts take in order to evade having a light shining on 
them.
    So the biggest argument that cratered plan B during the 
Bush administration and undermines the use of more aggressive 
sanctions under the Obama administration--in other words, it is 
a bipartisan executive branch paralysis on this issue--and that 
is that our diplomacy will be undermined if we push more 
strongly this accountability tool.
    I believe--and I think we all share this--the opposite; 
that, in fact, speaking of accountability and then backing it 
up with these kinds of things, with draconian sanctions, with 
crossborder humanitarian operations when they deny humanitarian 
assistance, a no-fly zone when they keep bombing civilian 
populations, that would actually strengthen our diplomatic 
hand. That would actually mean that we are backing up what we 
are saying all these years about human rights, and governance, 
and on democracy, and all the peace and all the other stuff 
that we are doing. And we would be taken more seriously instead 
of making these vague threats, never implementing them, and 
then looking even more like the paper tiger that America gets 
accused of being all the time. We don't have to be a paper 
tiger in Sudan if we make some policy decisions that our first 
interest and foremost interest in Sudan is the people of Sudan.
    Mr. Smith. Let me ask two final questions. Dr. Prunier, you 
mentioned as your fifth point that the Eritrean Government 
should be told that intervening in South Sudan for aiding and 
abetting such Khartoum-based destabilization plans is not 
acceptable. The danger here is to see a repeat of Eritrea's 
support for al-Shabab's terrorist movement in Somalia, and such 
a development would be strongly encouraged.
    Who should make that appeal? We have very little contact 
with the Eritrean Government ourselves. What government or 
governments should do that?
    And my final question to all of you, obviously Ambassador 
Princeton Lyman knew that we had a former slave here today. It 
is an issue that I had raised. I am not the only one. Many of 
you have raised it for many, many years. As was mentioned 
earlier--John mentioned this from Christian Solidarity 
International--slavery was kind of resurrected back in 1983 as 
a means of war, exploitation, but also as a means of 
demoralizing. And as Mr. Deng pointed out in his testimony, the 
men were killed; the women and the children were abducted, put 
into slavery and abused thereafter.
    My question, because it was not in Ambassador Lyman's 
testimony at all, no reference to slavery, which I thought was 
an oversight perhaps, he did say he would address it--your 
feeling about the issue. We heard from Dr. Garang earlier in 
his taped statement, obviously having died so long ago so 
unfortunately. But this issue seems to be on the sidelines. I 
am at a loss to know why.
    Ms. Ratner.
    Ms. Ratner. You know, it is interesting that--I have talked 
to some of my friends in the military, and one of the things 
they say is, look, whenever there is a war, there are prisoners 
of war taken. And even if you don't want to call it slavery, 
although it is clearly slavery, people are returned. So if this 
is a prisoner--if you want to call it prisoner of war, okay, 
you know, we can argue about words. Why not return these 
people? The war is done. It is now a separate country.
    Mr. Prunier. Physically a lot of the people who have been 
reduced into slavery are in the area which is now part of the 
fighting. They don't go all the way north. They remain in the 
strip of that Sahelian, which is neither North nor South. And 
physically, you know, it is part of the war now.
    Ms. Ratner. I totally disagree. I am not saying that there 
aren't a lot of people in that area, but the people I just 
talked to on Wednesday and Thursday a week ago were not from a 
war area. They were from a peaceful area where there has been 
no conflict for years, and they are just held.
    Mr. Smith. Mr. Prendergast.
    Mr. Prendergast. I think that, you know, this is a regime 
in Khartoum that has created an environment and uses 
starvation, uses slave raiding, uses aerial bombing, uses 
ethnic conflict, all of these tools. These are the tools that 
it uses to fight war. Therefore, we need to highlight the 
individual abuses, the slave trade that it fostered during the 
1980s and 1990s, the use of starvation as a weapon, all of the 
ethnic conflict that it will foster inevitably in South Sudan, 
the kind of tactics it is undertaking, and we need to highlight 
all of these. But we need to focus all of that attention then 
on what are we going to do about that regime that does all of 
these things.
    And so there are important steps that need to be taken to 
demand and press for people to be able to return safely home to 
their home areas, and those need to continue. U.S., the United 
States, can back those more strongly. At the same time, though, 
we need to be more focused on ending the kind of government 
that allows for these kinds of things to be part and parcel of 
what goes on as normal in Sudan today. And that is just simply 
unacceptable morally.
    Mr. Smith. Ranking Member Payne.
    Mr. Payne. Thank you. Thank you all very much. And thank 
you, Mr. Deng, for your testimony.
    And on this whole question of, I think--I think Dr. Prunier 
gave a very interesting historical background on the problems, 
and I couldn't agree with you more, the whole question of the--
I think, too, there is a psychological attitude that went into 
the Arabization of Sudan because it seems that it is a 
superiority feeling that wasn't helped with the Ottomans 
separating the country.
    The British had two rules, one for the North, as you know, 
and another administration for the South. So when independence 
came in 1956, it was just a natural thing to follow the British 
model and--but the fact that--one of the things that was very 
surprising, which also points out--your point is that the 
Darfurians--throughout the history, of course, the poor people 
are usually in the military, and these were people who actually 
fought against SPLM, SPLA. You know, you are in the army, and 
the army fights, and poor people get in the army, and so when 
Darfur occurred, because they were Islamic, it kind of shocked 
people because of the fact that they were Islamic believers, as 
was the government in Khartoum, where the conflict had been 
argued for many years as it was the Islamic North, the Arabic 
North, against the animus or Christian South, so more of a 
religious conflict.
    So that was very alarming and surprising to people that 
they went and bombed their own religious allies, which was 
shocking. And that was, of course, right after the CPA and the 
agreement between the North and the South occurred. So I think 
that it is much more of a superiority complex.
    I agree with these three groups wholeheartedly, with what 
you say, but I don't necessarily agree that the--you know, I 
think that Bashir has used his cleverness more so with getting 
people to say that the indictment of the ICC is because we are 
in Africa that this is happening, and that it is unfair, and 
they wouldn't do it other places because, you know, you didn't 
get the outcry when Charles Taylor was indicted. He was the 
head of state, you know, and the DRC, one of the Vice 
Presidential candidates, Bemba, was indicted by the 
International Criminal Court. And when he was simply visiting, 
I guess it was in France or somewhere, or Belgium, he was 
arrested, and we did not get the outcry.
    I think that Bashir has used very cleverly and 
manipulatively himself to somehow influence some other leaders 
in Africa. I don't know whether they have special 
relationships, countries that might need oil. I don't know. But 
I don't think that the overall feeling in Africa is that you 
are going--because, like you said, Africans weren't killing 
white men, you know, they were killing Africans. And so I think 
that he used--one, he used religion to say, you are going after 
me because I am Islamic, because when I first got involved in 
the issue, when the whole question came up of slavery, there 
was--people said, well, there was opposition to raising the 
issue, and it was--religion was brought in, you are attacking 
us because of our religion. And, of course, I do think that the 
Islamic religion has been attacked, unfortunately, and put in a 
category of everyone being evil and wrong, which I think is 
wrong. So therefore, it does give the argument to Islamic 
leaders that they are doing this because of our religion. So I 
think that because of the longtime-held discrimination against 
Islam in general, some of these issues occur.
    But, you know, the whole question of what should be done--I 
agree--the question--and maybe, Mr. Prendergast, you could 
answer it. If we say we are not going to--we are going to 
insist that SPLA keep out of Southern Kordofan--and I, you 
know, also agree. I don't think that prolonged fighting is the 
answer. But if Bashir refuses to allow, one, humanitarian food 
coming in because there is already becoming a food shortage; 
and number two, if they continue to kill people without the 
SPLM North being able to defend themselves, I mean--and they 
won't let peacekeepers in, I don't know, maybe Dr. Prunier, 
John Prendergast, what is the solution? I mean--and secondly, 
would you clarify more the images that you say your satellite 
has possibly seen, that there may be mass graves in part of 
Southern Kordofan or Blue Nile?
    Mr. Prendergast. Our focus has to be front and center on 
protecting civilian populations. I think the opposition to 
taking any action is the sort of inertia, the status quo 
position, and it will always be that unless we politicize this 
issue.
    So I would actually give a political answer to the policy 
question, that a group of Congresspeople led by you two and 
others, who--like Congressman Wolf, who have been on the front 
lines for so long, and get some Senators and begin to have 
meetings at the seniormost levels at the White House. If you 
can get the President, great, but Denis McDonough speaks for 
the President on foreign policy. He is the key person. He has 
led on this issue, and he was constructive once he turned and 
focused on this. He was very constructive on the referendum. 
Valerie Jarrett, Mike Strautmanis. Go for the politicos and 
demonstrate that there is wide and deep support and that--I 
mean, that is you guys leading and getting some of your 
colleagues to go.
    I don't think that talking to--Princeton Lyman is one of 
the best Ambassadors we have, so it is not him that is the 
problem here. It is that it hasn't--there was a surge of 
interest around the North-South referendum. The President got 
directly involved. Bipartisan support for the President to do 
more. The administration was extremely successful in supporting 
that and helping to birth a new country, and then it turned 
away and stopped focusing at a higher level. So you are left 
with Ambassador Lyman, who has to sort of roll around at this 
level where nothing gets through the glass ceiling.
    You guys have to break the glass ceiling like you have over 
and over again. I don't see another way to do it. The activists 
will be out there, too, hammering away, doing the ads, doing 
the call-ins, doing the email campaigns, the demonstrations, 
the protests and stuff. But we have got to make the issue of 
protecting civilian populations that you have championed so 
strongly a political issue somehow, just like it was 
politicized that we had to be supportive of the referendum, 
just like it was politicized in the last decade that we had to 
do something about Darfur. It is the only way we are going to 
get action on an issue like this.
    So I would say it is incumbent on us as activists to figure 
out better ways of targeting President Obama for getting his 
attention and getting some action on these issues, because we 
already know--we feel we know what the solutions are. We have 
talked about them many times. We just have to recapture the 
imagination and the attention of the senior policy people.
    So I think finding those folks at 1600 Pennsylvania and 
making them somewhat accountable to this wide and deep group of 
Americans who care about these people in Sudan and their well-
being, which hasn't gone away. We still have the Darfur 
coalition, and the antigenocide coalition, and the folks that 
care about the North-South issues and want to protect them. 
They are all there. They are still doing their little things. 
We have got to, in fact, have that kind of leadership.
    So I look at it as very much up to us here in Washington to 
press and pound the administration. When there is a lot of 
things going on, going into election season and saying, you 
know what, all of your pollsters and all of your political 
advisors are focusing so much on the youth vote, the youth vote 
is going to swing it this year in 2012. Well, there is a 
substantial portion of young people on campuses and high 
schools all across this country who care about this question, 
actually care about the fate of the people of Sudan, that care 
about the fate of the people of Darfur. They may not know all 
the ins and outs of the policy angles, but they care. This is a 
policy and political win if this administration, backed by 
bipartisan congressional support, takes a more supportive and 
aggressive action in support of human rights in Sudan.
    Ms. Ratner. I just want to remind both Mr. Smith and Mr. 
Payne that, first of all, the people who retrieved the slaves 
are Arabs. And I asked, in fact, one of the retrievers, I said, 
``Why do you do this?'' and he said, ``Because in my religion, 
Allah tells me that this is the most important thing to do''; 
and that also there are these Arab Dinka slave committees that, 
you know, give the novidium and assess what it is going to cost 
to get people.
    So there are, you know--anybody who wants to say it is all 
one way or the other, it is not. There are people who are Arabs 
who are very much trying to help out. And, in fact, Ker talked 
to one of them the other day, and he is going to try to get his 
mother.
    And the second thing I want to say is that in 1994, I was 
one of the six journalists that went with President Clinton's 
hunger commission to the Horn of Africa. And we went to 
Eritrea, and Eritrea was touted as this new democracy. It had 
just won its independence, whatever, from Ethiopia in this war, 
and it was touted as AID was giving it money, and it was going 
to be this great free democracy, et cetera, and look what has 
happened.
    So I just want to say I think it is very important that we 
as Americans keep our finger on the pulse over there, because 
what happens in South Sudan and Sudan proper can affect all of 
us for many generations.
    Mr. Payne. I think there is no question about it. I agree, 
I think you substantiate what I said, that people have broad-
brushed Islam and Arab people as being all negative, especially 
since 9/11, things that are happening, just unbelievable, and I 
think that is unfortunate. And somehow we have got to really 
work out and say there are bad--everything--it was a Christian 
that bombed Oklahoma Oklahoma City Federal building. He was a 
church-going guy.
    So, you know, we have this way of broad-brushing whole 
groups, and I think the quicker we can get out of that, the 
better.
    And finally, I do think that we ought to really reach out. 
I have been to Eritrea, and I have tried to see if that 
government can do things in the right direction. I do think 
that they have made some--believe it or not, they made some 
overtures in the last several months asking to have 
discussions. So I think that we should have an open door to 
hear, well, what is it that you really want to talk about, and 
if there are some things that we can really do to change it. 
But they are getting ready to, you know, mold them almost to a 
step up with Iran and North Korea, State Sponsors of Terrorism, 
which I think is a little bit much.
    Sudan isn't even close. And I do think that we need to have 
negotiations with people that we--we do it with everyone else 
now, North Korea, Iran. But we tend to have things shut off, 
and I do think we--an error was made when the border decision 
was made in Ethiopia. Our great military allies were found to 
be wrong in the Badme situation. But our policy, our Government 
did not push to enforce the decision, which, you know--I mean, 
that doesn't mean, therefore, you stay there for a decade.
    But, you know, our policy is relatively inconsistent, and I 
think that if we could ever figure out our policy under any 
administration, I would love to see that day. When we have a 
consistent policy where you have Assad shooting people down in 
the street, and know Ghadafi is hiding somewhere, and no one is 
saying too much about Assad, it baffles me. But I really 
appreciate all of the great work that each and every one of you 
are doing.
    And, Ker, what do you want to be when you get big?
    Mr. Deng. Say again.
    Mr. Payne. What do you want to be when you get big?
    Mr. Deng. I want to help people.
    Mr. Payne. Well, you can't have a better want than that. So 
congratulations. And I hope you--and I know you will be able to 
do that when you get grown.
    Thank you.
    Mr. Smith. Thank you very much, Mr. Payne. I want to thank 
the panel.
    I do have one final question with regards to an issue that 
I think is extremely important, and it often gets underfocused 
upon, and that is the issue of forced Islamization. I recently 
chaired a hearing as chairman of the Helsinki Commission on a 
very disturbing and absolutely underfocused upon issue in 
Egypt. We heard--as some of you may know, I have worked on 
human trafficking for the last 15 years, actually wrote the 
Trafficking Victims Protection Act. And a woman, who was a lead 
investigator at ODIHR as part of the OSCE on trafficking--she 
is now a professor or serving as a professor right here in 
town--testified and had huge amounts of corroborating evidence 
that in Egypt young Coptic Christian girls are being abducted 
at 12, 13 and 14 years of age not by the dozens, not by scores, 
but by the thousands, sold and forced into Islam. And then at 
age 18, after having been abused, are given to an Islamic man 
as his bride.
    Our Government has said next to nothing. I brought it up 
with our Assistant Secretary for Democracy, Human Rights, and 
Labor and gave him the data. Michele Clark was the lead 
investigator. She was number 2 at the OSCE working on 
trafficking, and she did much of the investigations herself. 
But somehow it didn't play into the idea that you don't raise 
that issue. And many of the Coptic Christian leaders have been 
very quiet.
    These women do not come back. They are shunned by many, 
unfortunately. And there have been other incidents of this 
forced Islamization. I say that having worked very closely with 
Ceric, the Grand Mufti of Bosnia, who takes a completely 
different view of respecting all faiths, Christian, Islam, 
Buddhist, whatever the faith might be, affording it full and 
complete respect.
    I think it is important to point out in the United States 
that the FBI does track hate crimes, and Christians--hate 
crimes against Christians are under 10 percent. Hate crimes 
against followers of Islam are under 10 percent. But Jews, the 
smallest minority in the United States in terms of major 
religions, have over 70 percent of the hate crimes committed 
against them as recorded by the FBI, so a very serious 
disproportionality.
    And I have always been concerned--and it is baffling, and, 
Doctor, you might want to speak to this, and maybe Mr. Payne 
was onto this with the superiority deal with the Arab Muslim 
versus the Black Muslim--but in the South it was clear that it 
was an effort for forced Islamization, the imposition of Sharia 
law on the South. Some may disagree with that, but there was 
ample evidence throughout the invasion of the South that this 
was the case.
    So I would appreciate your thoughts, because very often the 
radicals, the Wahhabis and the others who are so radicalized, 
as opposed to mainstream Islam, which can and does coexist 
peacefully with other religions, which is the way it should be, 
obviously. So your thoughts on that, because I think, you know, 
the why of it always is a concern to all of us: Why are they 
attacking the South; why are they opposing Sharia law the way 
they are?
    We know that there has been some very serious violence in 
Nigeria, and, again, there was a Catholic bishop and a major 
imam traveling throughout Nigeria preaching respect. But 
frankly, that was not the case for others who were showing a 
profound lack of it. And then who can forget the Pakistani 
Minister Bhatti, who was very horrifically gunned down, 
executed by a radical Islamic group in Pakistan, and his 
message was one of respect for all religions, including the 
Christian religion in Pakistan.
    So I would just appreciate maybe final thoughts, if you 
would, or if you just want to leave it at that, we will just 
conclude.
    Ms. Ratner. Well, you know, I think that at least the 
people we talk to as they are coming back--and I interview by 
myself, you know, 15 or 20 people--everytime I go. There is a 
lot of forced religion. As I say, I call it like I see it. 
There are a lot of wackos out there. And it is not just there. 
There are people in other parts of the world that want people 
to be their religion.
    And so I think that at least a lot of the people we see--we 
saw a guy with a cell phone, and I have never seen a returnee 
slave with a cell phone. Well, his job was to try to convert 
other Dinkas, and then his master would call him and take them 
to the mosque.
    I mean, there are people who have their points of view, and 
they are going to make people in their view, and unfortunately 
we see a lot of that.
    Mr. Smith. But there is a big difference between 
proselytizing and coercion.
    Ms. Ratner. No, our people are forced with a stick to 
convert. And women--I mean, the women and the being--you know, 
we talk and--were you forced, we ask the women, to be an Arab 
woman; in other words, a female circumcision. And I have got to 
tell you, it is off the charts. And I won't even describe in 
the committee how they do it.
    Mr. Prunier. Perhaps I have a slightly different point of 
view, because it is not religious, it is social. And it is 
really seen almost in terms of an army, how many men do we have 
on our side, men, women and children; how many do they have on 
the other side.
    The notion of religion, most of the people who try to push 
people into conversion into Islam are so ignorant of Islam 
themselves, it is appalling. These are not doctors of theology 
that do that at all. And there is a kind of--which is totally 
betrayed by the reality on the ground, because the evolution in 
mentalities--if you go to Darfur now, if you were in Darfur 30 
years ago, it is completely different. The notion that I am a 
Muslim, therefore I have to be with the people in Khartoum, 
this is dead. It is completely dead. Thirty years ago it was 
true. So people who are still acting that way, like toward the 
Dinka and themselves, belong to another era. They don't realize 
it themselves, but they are sort of like walking ghosts. They 
express the position of a society which has died in Sudan.
    Ms. Ratner. But there are a lot of them, and then they take 
people and they are hurting them physically and mentally.
    Mr. Prunier. That is not because something is dead that it 
doesn't have supporters. There are plenty of neo-Nazis in 
Europe. I doubt very much that they ever come back to power.
    The question is not one of religion, because when you are 
in America, you tend to think of religion as a spiritual thing, 
as a personal one. There it is really a social process which 
is--they try to impose on people, and it doesn't work. If it 
worked, we wouldn't have the war now that we have in Southern 
Kordofan, that we have in Blue Nile, because the people who are 
fighting there are Muslims.
    Mr. Smith. Okay.
    Mr. Prendergast. I think we can't forget that the biggest 
Jihadist recruitment drives, the biggest forced conversion 
campaigns during the 1990s were--at the height of sort of the 
regime's--the National Congress Party's, then the National 
Islamic Front's--sort of ideological period were focused in the 
Nuba Mountains and other border areas as pushing into those 
areas where they could target often minority, non-Muslim 
populations. But the reason why both are right is they did it 
as a political tool, not because of pure ideological--purely 
ideologically, you know, creating enemies to develop solidarity 
in the North.
    And I think as the Government of Sudan and the regime in 
Khartoum becomes more and more inward looking now and paranoid, 
and as Bashir, as clearly evidence would indicate, is reaching 
out more and more to radicalized elements that are inside Sudan 
and in Iran, we need to be very focused on this issue as sort 
of one of the crucial potential human rights issues in Sudan, 
the abuse and politicization of religion to suppress human 
rights, and I think that is what it is about, and that is why 
both of them are correct, I think.
    Mr. Smith. Thank you so much for your leadership. I really 
appreciate your time today, and we look forward to working with 
you going forward. The hearing is adjourned.
    [Whereupon, at 4:56 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
